<html>
<title> - THE IMPACT OF THE DRUG TRADE ON BORDER SECURITY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





            THE IMPACT OF THE DRUG TRADE ON BORDER SECURITY

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 15, 2003

                               __________

                           Serial No. 108-70

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

90-205              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
EDWARD L. SCHROCK, Virginia              Maryland
JOHN R. CARTER, Texas                ELEANOR HOLMES NORTON, District of 
MARSHA BLACKBURN, Tennessee              Columbia
                                     CHRIS BELL, Texas

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                   Christopher Donesa, Staff Director
          Nick Coleman, Professional Staff Member and Counsel
                         Nicole Garrett, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 15, 2003...................................     1
Statement of:
    Beeson, Paul A., Assistant Chief Patrol Agent, El Paso 
      Sector, U.S. Border Patrol, Bureau of Customs and Border 
      Protection; Frank Deckert, Superintendent, Big Bend 
      National Park, National Park Service; Sandalio Gonzalez, 
      Special Agent in Charge, El Paso Division Office, Drug 
      Enforcement Administration; and David Longoria, Interim 
      Port Director, El Paso Port of Entry, Bureau of Customs and 
      Border Protection..........................................     7
    Cook, Bob, president, Greater El Paso Chamber of Commerce; 
      Ruben Garcia, truancy prevention specialist, Ysleta 
      Independent School District; and Jose Luis Soria, clinical 
      deputy director, Aliviane Drug Treatment Center............    89
    Leon, Carlos, chief, El Paso Police Department; and Leo 
      Samaniego, sheriff, El Paso County Sheriff's Department....    67
Letters, statements, etc., submitted for the record by:
    Beeson, Paul A., Assistant Chief Patrol Agent, El Paso 
      Sector, U.S. Border Patrol, Bureau of Customs and Border 
      Protection, prepared statement of..........................     9
    Cook, Bob, president, Greater El Paso Chamber of Commerce, 
      prepared statement of......................................    92
    Deckert, Frank, Superintendent, Big Bend National Park, 
      National Park Service, prepared statement of...............    19
    Garcia, Ruben, truancy prevention specialist, Ysleta 
      Independent School District, prepared statement of.........    98
    Gonzalez, Sandalio, Special Agent in Charge, El Paso Division 
      Office, Drug Enforcement Administration, prepared statement 
      of.........................................................    30
    Leon, Carlos, chief, El Paso Police Department, prepared 
      statement of...............................................    69
    Longoria, David, Interim Port Director, El Paso Port of 
      Entry, Bureau of Customs and Border Protection, prepared 
      statement of...............................................    42
    Samaniego, Leo, sheriff, El Paso County Sheriff's Department, 
      prepared statement of......................................    73
    Soria, Jose Luis, clinical deputy director, Aliviane Drug 
      Treatment Center, prepared statement of....................   104

 
            THE IMPACT OF THE DRUG TRADE ON BORDER SECURITY

                              ----------                              


                        TUESDAY, APRIL 15, 2003

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                       El Paso, TX.
    The subcommittee met, pursuant to notice, at 9:35 a.m., at 
Chamizal National Memorial, El Paso, TX, Hon. Mark Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Deal and Reyes.
    Staff present: Nick Coleman, professional staff member and 
counsel; and Nicole Garrett, clerk.
    Mr. Souder. Good morning, and thank you all for coming.
    Today, our subcommittee returns to continue its exploration 
of the status of security and law enforcement along the 
southern Texas and New Mexico border. Since the summer of 2001, 
this subcommittee has been making a comprehensive study of our 
Nation's borders, including a field hearing last month in 
Sells, AZ. The subcommittee has focused particular attention on 
the effectiveness of the Federal law enforcement agencies 
entrusted with protecting and administering our Nation's 
borders and ports of entry. Last summer, the subcommittee 
released a comprehensive report on these issues, but our study 
continues.
    I was asking whether we had a copy of the report here. It 
is a most comprehensive study and you can get it on our Web 
site or you can contact our office. It is about 100 pages, we 
took everything and put it together in a comprehensive study of 
the north and south borders. And in fact, the new Homeland 
Security Committee that I am on, on Subcommittee on Borders, is 
using that as a premise for all the Members. Congressman Camp, 
the chairman, has given it to all the Members and asked them to 
read it before we start our hearing process.
    Today's hearing is intended to focus on the problem of 
illegal drug smuggling along the southern border, and the 
related crime and damage caused by that smuggling. The southern 
border still sees far more illegal activity than the northern 
border and it presents severe challenges for effective law 
enforcement. The southern border runs through deserts, 
mountains and rivers, through unpopulated areas as well as 
cities and suburbs, through National Parks, wildlife refuges, 
Native American reservations, and even military bases. 
Questions of overlapping law enforcement agency jurisdiction 
can come into play, and we intend to address those issues 
today.
    The El Paso area has been the site of some of the worst 
drug smuggling activity in the country for decades and the 
problem is not going away. Drug seizures here rose 
significantly from fiscal year 2001-2002, even as they fell in 
other parts of the country. In nearby Hudspeth County, the 
sheriff's department reports that smugglers are so inventive 
that they are even using horses to evade local deputies and 
patrols. Drug smugglers have been operating in the nearby Big 
Bend National Park for years, and that park was named the 
second most dangerous park in America in 2002, second only to 
Arizona's Organ Pipe National Monument, where we were just last 
month. And in October of last year, the U.S. Border Patrol 
agent Valerie Jaramillo was shot in the leg by marijuana 
smugglers about 70 miles east of El Paso. The narcotics 
themselves also take their toll on the lives of local residents 
through drug abuse, in the form of lost life and potential.
    These facts illustrate the serious challenges facing law 
enforcement and local citizens along the southern Texas and New 
Mexico borders. Drug smuggling and related crime have taken a 
toll on the environment and the quality of life for local 
residents, besides presenting a threat to the entire Nation.
    These issues are all very important and extremely urgent, 
and we look forward to hearing from our witnesses today about 
the ways to address them.
    I first want to thank Congressman Silvestre Reyes for 
joining us today and for the assistance that he and his staff 
provided to our subcommittee in setting up this hearing. We 
have worked together before on this issue, the only other time 
I have been in El Paso. He has been a leader in Congress on 
this issue.
    We also welcome the representatives of the Federal agencies 
primarily responsible for dealing with drug smuggling in this 
region; namely, the Department of Homeland Security's Bureau of 
Customs and Border Protection and the Drug Enforcement 
Administration. The subcommittee is vitally interested in 
ensuring the effective functioning of these agencies and we 
will continue to work with them and their staff to ensure the 
continued security and effective administration of our Nation's 
borders and its protection from narcotics.
    Congressman Deal, the vice chairman of this committee, and 
I yesterday flew in--he flew in, I drove down from San 
Antonio--to Laredo. We spent many wee hours of the morning on 
Sunday night, Monday morning with the Port Authority there, 
with the different officials and at the border. Then yesterday 
went from Laredo down through Falcon Lake, Zapata, went up in a 
helicopter down on the river with the Border Patrol, went to 
numerous crossings looking at the challenges on the south 
border.
    And as I mentioned earlier, I am also on the Homeland 
Security Subcommittee and we will be doing a number of joint 
hearings with that subcommittee and Homeland Security. And part 
of our mission, in addition to oversight of the Justice 
Department and all narcotics issues and related issues, is to 
make sure that in the new department, because Customs, Border 
Patrol, INS, Coast Guard have been much, along with DEA, of our 
fight against narcotics. And we cannot lose that as we are 
working through the terrorist issues. That is why we have a 
staff person, Roger Mackin, over at Homeland Security, to try 
to coordinate these things and hopefully we can be more 
efficient. I know there is a lot of concern not only within the 
agencies but within Congress, that the other missions of these 
agencies are not lost as we also focus on Homeland Security.
    Today, we welcome Mr. Paul Beeson, Assistant Chief Patrol 
Agent of the U.S. Border Patrol's El Paso Sector; Mr. David 
Longoria, Port Director of the El Paso Port of Entry; Mr. 
Sandalio Gonzalez, Special Agent in Charge of the Drug 
Enforcement Administration's El Paso Division Office.
    As this subcommittee is also concerned with the problem of 
drug smuggling at our Nation's parks and wildlife refuges, we 
are also pleased to be joined by Mr. Frank Deckert, 
Superintendent of Big Bend National Park, representing the 
National Park Service. I am also a member of the House 
Resources Committee, and the Parks Subcommittee and Fish and 
Wildlife Subcommittee, so I have had many opportunities to 
visit our national parks and wildlife refuges and to meet with 
the Interior Department personnel who manage them. We hope at 
this hearing to focus special attention on the law enforcement 
issues faced by your agency, so we thank you again for your 
participation.
    When examining border policies, we must also seek the input 
of representatives of the local community whose lives are 
directly affected by changes at the border. Representing the 
local law enforcement agencies entrusted with protecting local 
citizens from drug smugglers and other criminals, we are also 
pleased today to be joined by Chief Carlos Leon of the El Paso 
Police Department; Sheriff Leo Samaniego of the El Paso County 
Sheriff's Department. We are also joined by several witnesses 
who can testify to the impact that drug smuggling has on 
schools, neighborhoods and local businesses: Mr. Bob Cook, 
president of the Greater El Paso Chamber of Commerce, I am sure 
will also point out the importance of the commerce and the 
tradeoffs that we have to make on security and trade to make 
sure our economy keeps working as well. Mr. Ruben Garcia, 
truancy prevention specialist at the Ysleta Independent School 
District; and Mr. Jose Luis Soria, clinical deputy director at 
Aliviane Drug Treatment Center.
    We thank everyone for taking time this morning to join with 
us for this important hearing.
    According to subcommittee rules, I will yield next to the 
vice chairman of the committee, before going to our guest, who 
we are going to have participate in our hearing today, 
Congressman Reyes, our host Congressman.
    Mr. Deal.
    Mr. Deal. Thank you, Mr. Chairman, good morning.
    Thank you all for being here, and more importantly, thank 
you for what you do every day working on the border trying to 
continue our efforts to protect our homeland and to deal with 
the apparently never-ending problem of the drug war.
    Representing a non-border State, some people are surprised 
to learn that what you do here on the Texas/Mexico border has a 
lot to do with what impacts my Congressional District in 
northern Georgia. The former Immigration & Naturalization 
Service's most current estimates show that Georgia has about 
228,000 illegal immigrants, ranking my State as the seventh 
largest in illegal immigration population in the United States. 
As those numbers would imply, illegal immigration poses 
significant problems in my District, one of those inherent 
problems being illegal drug trafficking and the general drug 
trade.
    A report released by the U.S. Department of Justice in 
January of this year, cites Atlanta, GA, which is just south of 
my District, as a regional drug transportation hub and 
distribution center of drugs such as marijuana, cocaine and 
methamphetamines, all of which are said to come primarily from 
Mexico.
    As you all know, one of the problems that drug trade brings 
with it is that of gang activity. Mexican gangs are said to be 
the primary transporters and wholesalers of drugs in Georgia. 
The DEA and the Internal Revenue Service estimate that criminal 
groups transfer, primarily to Mexico and Colombia, 
approximately $2 million per week from money coming from 
business there in Georgia.
    What is even more troubling is that in my District, we have 
recently seen a significant increase in the number of murders 
committed, most of which have been directly linked to Hispanic 
gang activity and of course, directly related to drug activity.
    I want to reiterate the fact that the problems associated 
with illegal immigration and drug trafficking stretch far 
beyond the border right here. They stretch to States, cities 
and counties all across our country. You all have an important 
job with huge risks and obstacles that you face every day. I 
commend you for accepting the challenge of securing our 
borders. I want to thank you again for what you are doing.
    However, we all know that we can do more. I look forward to 
hearing from each of you as to what we, as Members of Congress, 
can do to make your jobs more efficient and to make our country 
safer and a more secure place to live.
    Thank you, Mr. Chairman.
    Mr. Souder. Thank you. First, to do one procedural thing. I 
ask unanimous consent that all Members present be permitted to 
participate in the hearing. Hearing no objection, it is so 
ordered.
    I would now like to recognize Mr. Reyes, a distinguished 
Member and Representative in Congress from this area, a long-
time leader on these issues.
    Mr. Reyes. Thank you, Mr. Chairman. Chairman Souder and 
Vice Chairman Deal, welcome to El Paso, and in particular, 
welcome to one of the jewels that we are very proud of here, 
the Chamizal Park, which was created as a way of settling a 
boundary dispute that existed for many years with Mexico. And 
it was set up as a venue to have our citizens enjoy the kind of 
relationship that we have enjoyed with Mexico for over 70 
years. So welcome to this very historic place.
    And I want to in particular thank Superintendent Isabel 
Montez, who runs this national park here, for allowing us to be 
here and hosting us in this very beautiful facility.
    I am honored to be part of this hearing today, Mr. 
Chairman. As you and the vice chairman know, I have dedicated a 
large portion of my adult career to the issues that you will be 
covering here this morning, because for 26\1/2\ years, I was a 
Federal law enforcement agent with the Border Patrol and with 
the Immigration & Naturalization Service, including 12 of those 
as a chief, first down in south Texas where I know you have 
just recently visited. I was Chief of the McAllen Sector. And 
subsequent to that was reassigned to El Paso and actually 
retired as the Chief here in El Paso in charge of west Texas 
and southern New Mexico--or all of New Mexico technically, but 
primarily focused on the border regions in New Mexico. And 
retired to run for Congress.
    I know we share a lot of common interests and when you were 
considering doing the border field hearings, I very much 
appreciated that you decided to come to El Paso. We think we 
have both a good news story here, as well as a typical area 
where we face many challenges. And knowing of both your 
interest in homeland defense, I know that the testimony you are 
going to hear today is going to, I hope, add to the information 
and certainly the amount of evidence that is pretty compelling, 
that when you pay attention to border communities and when we 
focus on the front lines of the war--and today, we are not just 
talking about the war on drugs, we are talking about an area 
that is susceptible to not just narcotics, but gun runners, 
certainly terrorists.
    I can tell you during the first Gulf war, being the Chief 
in McAllen Sector, we turned over about 16 suspected terrorists 
to the FBI. So that kind of work is going on now. I know a lot 
of the agencies cannot get into that because of its classified 
nature, but I can assure you that protecting America's borders, 
especially, the 2,000-mile border with Mexico, is a critical 
and vital part of--or should be a vital part of strategy for 
homeland defense. As you know, Mr. Chairman, we have been 
working with Secretary Ridge and members of his agency to make 
sure that there is a full and comprehensive strategy in place.
    Since you drove here from San Antonio, you know how 
distance is really significant in Texas and along the U.S./
Mexico border. And you know the diversity that our various 
agencies have to cover, you know the immense challenge that 
they have to address. So doing these kinds of field hearings is 
a critical and important part, not just of the learning 
process, but of the understanding of the magnitude of the 
challenge that is faced by a lot of my former colleagues that I 
actually worked with before going to Congress.
    Today, I know you are going to be briefed, both by JTF-6, 
Joint Task Force 6. I was with General Yengling yesterday at 
the funeral of one of our young men that we lost from the 507th 
and he mentioned to me that he was looking forward to briefing 
both of you and also the El Paso Intelligence Center, both I 
think critical and vital components in our strategy in homeland 
defense.
    So, thank you for coming to El Paso, I hope your stay is an 
enjoyable one. Regrettably we are going to have a little bit of 
wind today, it is not the kind of--and Bob Cook will verify, I 
see him back there--that most of the time we really truly have 
Chamber of Commerce weather here. When we were dealing with 
what I think was a brutal winter this year, the weather here 
was fine and the biggest problem was not being able to be here 
because of our schedule over there.
    But I hope you enjoy El Paso, I know you have been here 
before, and I hope you come back again and, of course, my 
colleague, I actually lived 2 years in Georgia, in Brunswick, I 
was part of the group that set up the Border Patrol and INS 
Academy in 1977 and 1978, when we moved the Academy to the 
Federal Law Enforcement Training Center. So I enjoyed my time 
in Georgia, so I hope you enjoy your time in Texas and in 
particular out here in El Paso.
    And with that, Mr. Chairman, let me again thank you for 
doing this and I offer my assistance, both for this committee 
and certainly for homeland defense, which I have been--I tried 
hard to get on that, but you know, there are politics involved 
in some of this stuff and so--[laughter]--on my side of the 
aisle, I came up short. But I have a tremendous interest and I 
have offered to both the chairman and certainly our ranking 
member, that I am available to assist in whatever capacity, and 
I make the same offer to you both as part of the Homeland 
Defense Committee and certainly in your capacity here.
    And if there is no objection, I would like to submit a 
written statement for the record.
    Mr. Souder. Yes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Mr. Souder. As Congressman Reyes noted, I will be meeting 
with a number of people here, actually we are spending 2 days 
because we are also meeting with the Southwest Border HIDTA and 
the local HIDTA. We are redoing the reauthorization as well 
through our committee and expect the markup to move through in 
the next couple of weeks. So we have been doing that. Although 
the focus today in the hearing is on the border, we are doing 
other things while we are here as well.
    Before proceeding, I would also like to take care of 
another procedural matter. First, I ask unanimous consent that 
all Members have 5 legislative days to submit written 
statements and questions for the hearing record, that any 
answers to written questions provided by the witnesses also be 
included in the record. Without objection, it is so ordered.
    It is a longstanding congressional protocol that government 
witnesses representing the administration testify first. So our 
first panel consists of those witnesses. Would each of you on 
the first panel rise and raise your right hands because as an 
oversight committee, it is our standard practice, because we do 
Federal executive branch oversight, to have all witnesses sworn 
in. So far we have actually gone after two since I have been 
for perjury. So do not worry too much, but it is best if, when 
taking the oath, you are completely accurate in your responses.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    The witnesses will now be recognized for opening 
statements. We will ask each of you to summarize your testimony 
in 5 minutes. Your full statement will be inserted in the 
record, in addition to any other comments you would like.
    We will first recognize Mr. Beeson on behalf of the U.S. 
Border Patrol.

STATEMENTS OF PAUL A. BEESON, ASSISTANT CHIEF PATROL AGENT, EL 
 PASO SECTOR, U.S. BORDER PATROL, BUREAU OF CUSTOMS AND BORDER 
 PROTECTION; FRANK DECKERT, SUPERINTENDENT, BIG BEND NATIONAL 
 PARK, NATIONAL PARK SERVICE; SANDALIO GONZALEZ, SPECIAL AGENT 
     IN CHARGE, EL PASO DIVISION OFFICE, DRUG ENFORCEMENT 
 ADMINISTRATION; AND DAVID LONGORIA, INTERIM PORT DIRECTOR, EL 
  PASO PORT OF ENTRY, BUREAU OF CUSTOMS AND BORDER PROTECTION

    Mr. Beeson. Thank you, Mr. Chairman, distinguished 
committee members, I am pleased to have the opportunity to 
appear before you today to discuss the El Paso Border Patrol 
Sector's operations and law enforcement initiatives to secure 
the U.S. border in west Texas and New Mexico. My name is Paul 
Beeson and I am an Assistant Chief for the Border Patrol in El 
Paso, which, as you now, is part of the newly formed Bureau of 
Customs and Border Protection within the Department of Homeland 
Security.
    I would like to begin by thanking you and your colleagues 
for this opportunity to speak with you today, and more 
importantly for the support and resources you have provided to 
the Bureau of Customs and Border Protection. Those resources 
are extremely important to the Bureau and to the Border Patrol 
as we continue to apply them toward securing our Nation's 
borders. The challenges to securing our borders and protecting 
the homeland are many. The importance of the support, funding 
and resources you have provided to meet this challenge cannot 
be overstated.
    The El Paso Sector is responsible for securing 289 miles of 
our border with Mexico. To do that, we have four Border Patrol 
stations in the two westernmost counties of Texas and eight 
stations in the State of New Mexico. This sector's area of 
operations is divided into three main corridors: The Fabens 
Corridor, the El Paso Corridor and the Deming Corridor.
    The El Paso area is a major hub for the smuggling of 
people, narcotics and other contraband. There is a tremendous 
amount of infrastructure, both within El Paso and to the south 
of us in Ciudad Juarez, in terms of ease of transportation, 
availability of hotels and routes of transportation that can be 
readily used in furtherance of illicit activity. The ability to 
use legitimate trade routes, transportation and business for 
illegal activity, contributes to the busy activity of the 
Border Patrol in El Paso.
    The El Paso Sector maintains a large amount of operational 
diversity as we continue to enforce our Nation's laws, and all 
of these operations are aimed the increasing deterrence and 
securing the border. Operation Hold the Line continues to be 
the mainstay of our operations in the El Paso Corridor, which 
is comprised of the Ysleta, El Paso and Santa Teresa Stations. 
The control we have achieved in this corridor has been through 
a combination of forward deployment and secondary operations.
    Both the Fabens and Deming Corridors continue to present 
enforcement challenges. We have noticed that as we achieve 
successes in other locations, the Fabens and Deming Corridors 
are experiencing increases in activity that represent a shift 
in traffic from more secure portions of the border.
    We continue to employ every available means at our disposal 
to combat the illegal activity that occurs in this area. There 
are six permanent traffic checkpoints strategically located 
throughout this sector, the purpose of which is to detect and 
interdict illegal immigrants and narcotics. As a result of 
these checkpoint operations, we frequently encounter violations 
of other laws as well. Traffic checkpoint operations have been 
responsible for a number of apprehended persons wanted in other 
jurisdictions for narcotics violations and other crimes, 
including murder.
    In summary, traffic checkpoints provide an additional 
defense to deter and detect immigration violators, narcotic 
smugglers and possible terrorists.
    This sector is fortunate enough to have deployed several 
advances in technology that greatly assist the agents in 
performing their mission. One such technological advance is the 
Remote Video Surveillance System, which as been strategically 
employed within the El Paso, Ysleta and Deming areas of 
operation. While the number of sites is small, when compared 
with the need, these remotely controlled surveillance cameras 
provide tremendous enhancement to our agents' ability to patrol 
and control an area. There are a total of 29 sites located 
within the aforementioned areas. These cameras provide coverage 
of 42 miles over the 289 miles of this sector. Expanded 
deployment of this system is vital to this sector's ability to 
enhance and maintain control of our piece of the border.
    The sector is actively engaged with officials from the 
Government of Mexico in addressing the problems of safety along 
the border. The El Paso Sector staffs a Mexican Liaison Unit 
that is in daily communication with law enforcement, military 
and other government officials from Mexico that work along our 
common border.
    Through the Mexican Liaison, we have been able to improve 
and coordinate communication with Mexican law enforcement 
officials.
    Our liaison efforts also include numerous law enforcement 
agencies here in the United States. The Border Patrol 
participates in the Federal Bureau of Investigation Joint 
Terrorism Task Force and other task forces within the Drug 
Enforcement Administration and the U.S. Marshal's Service, to 
name a few. Our coordination in these arenas has been 
invaluable to the overall success of these task forces.
    In discussing the challenges of the El Paso Sector, I would 
be remiss if I did not mention the tremendous individual 
efforts of the men and women who patrol our border every day 
and make the largest contribution to the successes experienced 
in El Paso.
    Mr. Souder. Thank you very much. And now I would like to 
recognize Mr. Frank Deckert, the Superintendent of the Big Bend 
National Park.
    [The prepared statement of Mr. Beeson follows:]

    [GRAPHIC] [TIFF OMITTED] T0205.001
    
    [GRAPHIC] [TIFF OMITTED] T0205.002
    
    [GRAPHIC] [TIFF OMITTED] T0205.003
    
    [GRAPHIC] [TIFF OMITTED] T0205.004
    
    [GRAPHIC] [TIFF OMITTED] T0205.005
    
    [GRAPHIC] [TIFF OMITTED] T0205.006
    
    [GRAPHIC] [TIFF OMITTED] T0205.007
    
    [GRAPHIC] [TIFF OMITTED] T0205.008
    
    Mr. Deckert. Mr. Chairman, thank you for the opportunity to 
present the efforts being made by the National Park Service to 
protect visitors and resources in national parks and mitigate 
the impact of illegal drug trafficking in Big Bend National 
Park. With me today are my colleagues, Isabel Montez, 
Superintendent of Chamizal National Memorial; Jacques 
Whitworth, Superintendent of Padre Island National Seashore; 
Bruce Malloy, Chief Ranger of Amistad National Recreation Area 
and Mark Speir, Chief Ranger of Big Bend National Park. If you 
have any questions about any of the other park areas in Texas, 
they would be happy to answer them.
    Protecting national parks along the Mexican border is no 
longer about simply protecting landscapes, plants and animals. 
At stake is the safety of our citizens and the agency's own 
employees, as well as the preservation of some of our Nation's 
unique natural and cultural features.
    Seven units of the National Park System share approximately 
365 miles of border with Mexico and 72 miles of seashore, and 
are directly impacted by increased illegal border activity. Big 
Bend National Park alone, shares 245 miles of border with 
Mexico, nearly 13 percent of the entire U.S./Mexico border. 
These seven areas hosted more than 3.8 million visitors in 
2002.
    Great attention has been focused on one national park unit 
and the death of a ranger there, where threats and illegal 
activities originating outside the United States grow in 
numbers. The problems at Organ Pipe Cactus National Monument 
are emblematic of how increased enforcement at urban crossings 
on the part of the U.S. Customs and Border Patrol, now part of 
the Department of Homeland Security, has pushed more crime onto 
adjacent public land.
    Here in Texas, similar problems are just beginning, but are 
multiplying exponentially. In Big Bend National Park, more than 
6,000 pounds of marijuana were seized within the park in 
January 2003, more than all the total seizures in 2002. Aware 
of the huge impacts on parklands in Arizona, we are presented 
with the opportunity to be proactive here in Texas. However, if 
we fail to act quickly and decisively, the opportunity to 
prevent similar impacts will be lost.
    The NPS in Texas actively participates in three High 
Intensity Drug Trafficking Area [HIDTA] partnerships. HIDTA 
facilitates coordination of equipment and information between 
Federal, State and local law enforcement agencies to address 
illegal drug activity. As a funded participant in west Texas 
HIDTA, Big Bend National Park implemented a narcotic detection 
canine program, placing a trained ranger/handler and a drug 
interdiction dog directly on the border. Both Amistad National 
Recreation Area and Padre Island National Seashore are unfunded 
participants in other HIDTA partnerships providing cooperative 
support to interdiction efforts in those parks.
    The NPS and agencies in the Department of Homeland Security 
work together on a daily basis at Big Bend National Park to 
share intelligence, to provide mutual support and to 
investigate reports of undocumented aliens and smuggling 
activity. Two Border Protection agents are currently stationed 
at and reside in the park.
    The NPS has responded to the threats along the Mexican 
border in Texas by significantly increasing the number of law 
enforcement rangers at border parks. The fiscal year 2004 
Intermountain Region border park law enforcement priorities 
reflect an additional 14 ranger positions. Big Bend National 
Park has 11 protection rangers and will add 3 more, using the 
$300,000 in base funding increase in fiscal year 2003. The 
region committed $35,000 for training for special event and 
incident management teams in fiscal year 2003. NPS and partner 
agencies provide advanced law enforcement training and tactical 
tracking, use of electronic surveillance equipment and other 
topics.
    Due to the escalating threats facing park rangers, NPS 
intends to make a 2-week course in special operations tactics a 
standard for all rangers assigned to border parks in Arizona 
and Texas. NPS is implementing a field training evaluation 
program that will provide each new ranger recruit with 12 weeks 
of field training with emphasis on improving officer safety.
    In May 2002, the Department's Bureau of Customs & Border 
Protection closed the unofficial Big Bend National Park border 
crossings, historically used at the Mexican villages of 
Boquillas, Santa Elena and San Vicente. Park managers are 
working with the Department's Bureau of Customs Inspections 
branch to explore the possibility of establishing some type of 
official crossing at one or two of these points. The NPS would 
support the restoration of these primitive crossing so that our 
neighbors in the Mexican villages will once again enjoy the 
benefits of tourist income. We believe that one of our best 
protections against terrorists entering the United States at 
these points is a friendly local population whose quality of 
life depends more on tourism than on illegal activities. In the 
interim, however, rangers are supporting the closure of the 
border at all crossings.
    The NPS has been proactive in identifying and solving 
problems related to border law enforcement issues. However, 
park staffs in the field seem to be dealing with new challenges 
on a daily basis. They would like to be reassured that if 
further help is needed, they could count on support from the 
American people through their elected representatives. In the 
meantime, we will continue to identify problems and seek 
creative solutions that involve neighbors and partners on both 
sides of the border. We believe this approach will help to 
protect our parks, our visitors, our staffs and our country.
    Mr. Chairman, this concludes my statement and I would be 
happy to answer any questions you or other members of the 
committee may have.
    [The prepared statement of Mr. Deckert follows:]

    [GRAPHIC] [TIFF OMITTED] T0205.009
    
    [GRAPHIC] [TIFF OMITTED] T0205.010
    
    [GRAPHIC] [TIFF OMITTED] T0205.011
    
    [GRAPHIC] [TIFF OMITTED] T0205.012
    
    [GRAPHIC] [TIFF OMITTED] T0205.013
    
    [GRAPHIC] [TIFF OMITTED] T0205.014
    
    [GRAPHIC] [TIFF OMITTED] T0205.015
    
    [GRAPHIC] [TIFF OMITTED] T0205.016
    
    Mr. Souder. Our next witness is Sandy Gonzalez. I was in 
the Indian region where I have been far too many times, I think 
nine times now, because you cannot look at cocaine and heroin 
and even much of the marijuana that comes across here or 
anywhere else without trying to get into the Indian region. But 
I believe it was one of the trips, which was an historic trip 
for my district, because I believe Gary Wade was with us as 
well from Washington Headquarters, and as we were going down 
the Amazon Basin toward a major junction, there is a little 
town--I am from Indiana--there is a little town there called 
Indiana. And Gary said to me, do you know the difference 
between--he said isn't this Indiana a lot different than yours. 
I said yes, there are DEA agents and there are none in my 
hometown. I have been battling for 10 years to get some. He 
said done, you have a DEA office. And because we now have a DEA 
office, we have been able to, rather than just do local 
enforcement, to be able to take some of those to the Federal 
level. And when we were at Laredo the other day, as well as 
this crossing, what we are increasingly finding is the ability 
to just not nab guys at the local level, but they wound up with 
a major ring that was coming up through Mexico, through Laredo, 
through Texas, up into Fort Wayne and then launching toward 
Detroit, Chicago from there.
    So we see this interconnectedness and it is good to see 
Sandy again here in Texas. So I look forward to your testimony.
    Mr. Gonzalez. Thank you, Mr. Chairman, good morning. Vice 
Chairman Deal, Representative Reyes, I am pleased to appear 
before you today to discuss the role of the DEA regarding the 
impact of the drug trade along the west Texas and New Mexico 
area of the southwest border. I want to thank the subcommittee 
for your support of the DEA.
    Today, I will describe the trafficking challenges faced by 
DEA in the west Texas and New Mexico region.
    The El Paso Division's area of responsibility covers 
approximately 40 percent of the U.S./Mexico border. El Paso and 
its sister city, Ciudad Juarez, comprise the largest 
metropolitan area on the border between the United States and 
Mexico, with nearly or perhaps over 2 million inhabitants. 
Daily, over 100 people cross the port of entry into El Paso.
    Cocaine smuggling remains our most serious threat, with 
prices ranging from $15,000 to $16,500 per kilogram. Marijuana 
runs between $400 and $500 per kilogram and is the most 
frequently and largest volume drug seized and transported 
through this area. Uninhabited land in New Mexico provides 
excellent locations for marijuana plantations and mountains and 
rural areas in northern New Mexico offer opportunities for 
small methamphetamine laboratories. Heroin use has been very 
high in Santa Fe and Rio Arriba County in north central New 
Mexico.
    The border is continually under attack by Mexican drug 
trafficking organizations that operate both in Mexico and the 
United States. Three major Mexican drug organizations are 
responsible for smuggling the majority of the illegal drugs 
across the west Texas and New Mexico portion of the southwest 
border. These groups utilize the El Paso ports of entry as 
their primary conduit into the United States.
    Before the World Trade Center disaster in September 2001, 
an estimated 90 percent of the illegal drugs coming to the 
United States were smuggled through the international ports of 
entry. Since that time, tighter security measures have caused 
smugglers to use less conspicuous points of entry.
    DEA investigations indicate that illegal drugs being 
transshipped from Mexico through this area are usually destined 
for Kansas City, Chicago, Atlanta and/or New York. Traffickers 
use concealed compartments in tractor trailers, trucks, vans 
and cars. They also use commercial trains, aircraft, Federal 
Express and Airborne courier services to smuggle drugs into and 
through our region.
    In more remote areas such as the Big Bend National Park, 
drugs are moved across the Rio Grande in small boats, vehicles 
that can drive across the river when it is low, or even by 
horseback. The Mexican Government is building a four-lane La 
Entrada al Pacifico highway, which I brought a map of that area 
and it is right over there to my right. This highway will 
intersect three major east-west interstates. The completed 
route will save up to 4 shipping days for goods moving through 
the Pacific Rim countries and Texas.
    Use of the passenger rail system to move contraband is also 
significant. Many substantial seizures have been made from 
passenger trains in the last year. In one instance, Federal 
authorities seized half a million dollars in cash from a 
passenger on a west bound train in New Mexico. The South Orient 
Railroad will provide daily passenger and freight service 
between Mexico and the United States. We expect both the La 
Entrada al Pacifico highway and this rail transport to increase 
drug smuggling in the Big Bend, Marfa area and this will 
present a challenge to DEA in this region.
    The El Paso Division currently participates in both the 
west Texas and New Mexico regions of the southwest border High 
Intensity Drug Trafficking Area [HIDTA]. DEA is required to 
respond to Border Patrol checkpoint seizures and arrests. These 
referrals include both drugs seized in vehicle checkpoint 
inspections and abandoned drugs. In fiscal year 2002, abandoned 
drug cases and checkpoint seizures consumed 59 percent of our 
agents' time.
    Bulk currency smuggling into Mexico continues to be favored 
by drug trafficking organizations. Southbound bulk currency 
shipments range from a few thousand dollars to millions. Larger 
shipments are usually concealed in tractor-trailers. Use of 
legitimate financial institutions also continues, including 
cross border wire transfers. In order to address this threat, 
the El Paso Division leads to multi-agency HIDTA enterprise 
money laundering initiative which was established at DEA's 
request late last year and is staffed by several agencies.
    The southwest border is the most prominent gateway for 
illegal drugs entering the United States. Increased border 
crossings combined with the presence of hardened Mexican drug 
trafficking organizations will require DEA's continued 
vigilance and ongoing cooperation among all the law enforcement 
entities in this region. We are focused on this challenge.
    Again, thank you for the opportunity to appear before you 
and I will be happy to answer any questions you may have.
    Mr. Souder. Our last witness on the first panel is Mr. 
David Longoria, Interim Port Director of the El Paso Port of 
Entry. Look forward to hearing your testimony and the 
challenges that you face.
    [The prepared statement of Mr. Gonzalez follows:]

    [GRAPHIC] [TIFF OMITTED] T0205.017
    
    [GRAPHIC] [TIFF OMITTED] T0205.018
    
    [GRAPHIC] [TIFF OMITTED] T0205.019
    
    [GRAPHIC] [TIFF OMITTED] T0205.020
    
    [GRAPHIC] [TIFF OMITTED] T0205.021
    
    [GRAPHIC] [TIFF OMITTED] T0205.022
    
    [GRAPHIC] [TIFF OMITTED] T0205.023
    
    [GRAPHIC] [TIFF OMITTED] T0205.024
    
    [GRAPHIC] [TIFF OMITTED] T0205.025
    
    Mr. Longoria. Good morning, Chairman Souder and committee, 
welcome to El Paso. I appreciate this opportunity to testify 
before you today.
    My name is David Longoria, I am currently the Interim Port 
Director for the Bureau of Customs and Border Protection here 
in El Paso, TX. My responsibility entails providing leadership 
for the Bureau of Customs and Border Protection inspectors at 
the port of entry.
    As you know, on March 1, 2003, the Customs Service, 
Immigration Service and APHIS, the USDA component, merged into 
the Department of Homeland Security. We now have one common 
mission that will serve to enhance the security of our borders.
    Our inspectors are the guardians of our Nation's borders--
America's frontline. They serve and protect the American public 
with integrity, innovation and pride. Together, they ensure 
that everything that enters the country, as well as everything 
that leaves the country is in compliance with all U.S. laws and 
regulations. Our collective priority is to prevent terrorists 
and terrorist weapons from entering the United States, while 
facilitating the flow of legitimate trade and travel.
    Thwarting terrorism, drug smuggling and any form of 
criminality at our borders, while facilitating the flow of 
legitimate trade and travel, is a challenge that is 
successfully met by utilizing industry partnership programs, 
cutting edge technology and a motivated work force.
    El Paso and its sister city of Ciudad Juarez comprise one 
of the world's largest border-plex communities. Ciudad Juarez 
is also home to several major drug organizations. The result is 
a high level of enforcement activity at our port of entry. To 
lend some perspective, consider the following as it pertains to 
the Port of El Paso. El Paso consistently leads the Nation in 
drug seizures. Since fiscal year 2003, we have seized more than 
100,000 pounds of narcotics. We consistently account for about 
25 percent of all drugs seized at the ports of entry. In fiscal 
year 2002, we processed about 36 million people, which is 
roughly the same as all of our international airports combined. 
El Paso leads the Nation in processing immigrant visas. On a 
given day, we process about 3,000 trucks, 37,000 privately 
owned vehicles and about 25,000 pedestrians.
    Our agency readily acknowledges that a balance between 
enforcement and facilitation is essential. While an overly 
facilitative approach renders our Nation vulnerable, an 
excessively enforcement posture can negatively impact our 
business and the economy. The solution lies in adopting a 
''smart border`` approach which takes advantage of risk-based 
enforcement efforts, non-intrusive inspection technology and 
engaging the industry in partnership programs.
    NII technology allows inspectors to examine vehicles and 
passengers in a quick and non-intrusive manner. For example, a 
truck coming from Mexico can be examined with gamma ray 
technology in about 7 minutes. Without this technology, the 
truck would need to be referred to the docks for a partial or 
full unloading, which can take several hours. A corollary 
benefit to this technology is that it keeps inspectors 
unencumbered and thereby more responsive to other threats.
    Examples of technology are: VACIS machine--Vehicle and 
Cargo Inspection System--uses gamma ray technology to scan 
trucks, vehicles and rail cars for density anomalies. Takes 
about 7 minutes per vehicle.
    X-Ray--same as VACIS but with different energy source and 
takes about 10 minutes.
    Density Busters--hand-held devices provide density 
readings. These $5,000 instruments allow inspectors to examine 
vehicles and containers for contraband, drugs or weapons of 
mass destruction by detecting secret compartments.
    Radiation Detectors--as the name suggests, these 
instruments detect radiation emissions. Inspectors wear these 
on their gun belts.
    Range Finders enable inspectors to detect false walls in 
commercial container.
    And CAOS, the Customs Automated Operations System, a system 
of computers, sensors, cameras and software, enables remote 
monitoring of non-24X7 ports, as well as generating lane 
scrambles for integrity purposes and special operations. For 
example, the system can be programmed to instruct officers to 
refer all pick-up trucks, or all vehicles ending in No. 3, etc.
    These are only some of the examples of tools and technology 
that are being used to lessen the intrusiveness of the 
inspection process and facilitate the flow of traffic. Industry 
Partnership Programs are also being used for the same purpose, 
but place the onus of securing the supply chain on the 
industry. Signatory participants agree to enhance the security 
of their operations and work with other members to secure the 
entire supply chain. The supply chain can include 
manufacturers, importers, carriers and warehouses.
    Participants in Industry Partnership Programs are provided 
with facilitated processing, including use of express lanes. 
Non-participants are subjected to more frequent examinations, 
including intrusive examinations. As a result of these 
initiatives, the Bureau of Customs and Border Protection 
focuses its attention and resources on non-participants, which 
has rendered a phenomenal success, including a recent 12,000 
pound seizure of marijuana in a commercial conveyance.
    One recent success with industry partnership in El Paso is 
the implementation of the Secure Trade Expedited Processing 
program [STEP]. This program provides express lanes and 
expedited processing for participants who meet certain 
criteria.
    As technology evolves, additional standards may be required 
such as use of transponders, cameras and satellite tracking. 
Our goal is to have the industry able to track and use its 
conveyances and containers at all times and thereby enable us 
to provide maximum facilitation while further focusing our 
enforcement efforts on non-participants. The strategy will no 
doubt result in maximizing drug interdiction.
    This is just a thumbnail sketch of the many tools and 
programs that are used by the Bureau of Customs and Border 
Protection to secure our border.
    I notice that my time is out and I just have a couple of 
other----
    Mr. Souder. Just go ahead.
    Mr. Longoria. OK. It is also very important to mention our 
cooperation and daily interaction with the newly formed Bureau 
of Immigration and Customs Enforcement [BICE], which is home to 
Department of Homeland Security investigators. BICE Special 
Agents in the El Paso District are actively involved in 
enforcement operations in an area that spans the 600-mile U.S./
Mexican border from the Big Bend area of west Texas, across New 
Mexico to the Arizona border.
    There are approximately 200 BICE Special Agents actively 
involved in a variety of initiatives designed to reinforce and 
secure our vast, rugged and remote border areas against the 
threat of terrorism, weapons of mass destruction and 
importation of narcotics and other contraband.
    These Special Agents apprehended, arrested and successfully 
prosecuted more than 2,100 Federal cases in the El Paso 
District during the last 12 months and the pace has not slowed. 
BICE Special Agents average 15 to 20 arrests, seizures and 
other enforcement actions each day. In excess of 75 percent of 
these Federal prosecutions are directly related to drug 
smuggling and associated money laundering activities. Our BICE 
agents are also aggressively pursuing national security and 
counter-terrorism initiatives on a daily basis in this 
district. For example, BICE Special Agents are now finalizing 
the prosecution of an organization that operated illegal 
weapons and military tactics training facility along the New 
Mexico border. This investigation has, to date, resulted in the 
arrest of nine defendants and the seizure of over $3 million in 
assets. BICE Special Agents have also significantly contributed 
to the location and/or apprehension of approximately 40 special 
interest illegal aliens since the initiation of the war in 
Iraq. El Paso District agents currently have over 25 active 
investigations of international/cross-border money laundering 
operations involving narcotics trafficking proceeds and in 
certain instances transfers of funds related to suspected 
international sponsorship of terrorism.
    In closing, I would like to again thank you for the 
opportunity to appear before the subcommittee. We are very 
proud of the work we do to serve and protect the American 
public. I can state unequivocally that the border is safer 
because of the tools, technology and partnership programs that 
are in place, and that border security will continue to improve 
as a result of the creation of the Department of Homeland 
Security.
    I would be happy to answer any questions you might have. 
Thank you.
    [The prepared statement of Mr. Longoria follows:]

    [GRAPHIC] [TIFF OMITTED] T0205.026
    
    [GRAPHIC] [TIFF OMITTED] T0205.027
    
    [GRAPHIC] [TIFF OMITTED] T0205.028
    
    [GRAPHIC] [TIFF OMITTED] T0205.029
    
    Mr. Souder. Thank you. I'm going to limit each Member to 
asking questions of no more than 1 hour of each witness. 
[Laughter.]
    There are so many ways we can go. One of the frustrating 
problems we have in a hearing like this is how to work within 
the 5-minute rule. I am sure each of you felt the same way 
trying to do your testimony. What this in effect will become is 
a book on this region once this hearing is published. So we 
will probably have more written questions to you than we get 
verbal questions in in our questioning period, and ask for 
additional documentation on a number of points that are raised.
    I would like to--and we will probably do several rounds 
here with the first panel. I would like to start to try to get 
a little bit of a grip on the big picture. A few things were 
raised to me that I was not familiar with and would like to 
start with Mr. Gonzalez.
    On this new highway that is coming in, is the port in 
Mexico fully developed yet, or is that more conceptual? In 
other words, is this--logically if this port grows, it is going 
to be a major trafficking pattern.
    Mr. Gonzalez. Correct. Before I get into that, I was just 
informed that I misspoke. I said 100 people come across the 
border every day, I think it is 100,000.
    Mr. Souder. But in this port, is that something that is 
developing rapidly, fairly developed?
    Mr. Gonzalez. Yes, we expect the highway to be completed 
this calendar year.
    Mr. Souder. And what about the actual harbor facilities, do 
you know about that?
    Mr. Gonzalez. I believe--I do not know for sure, but I 
believe the harbor facilities are established.
    Mr. Souder. Do you expect, given your experience in the 
Indian region and given the fact that most are coming now 
through southern, southwest Colombia and coming up the west 
side--or the east side of the Pacific, the west side of Mexico, 
that they will try to move toward that, to get to this highway?
    Mr. Gonzalez. Yes, the information we have is that the 
Mexican authorities will divert a percentage of the trucking 
that goes right now through California and El Paso, to this 
highway and they will enter through Presidio, TX, and this will 
increase the activity there of course of the Border Patrol and 
Customs. And we expect to see a lot more seizures.
    Mr. Souder. Is the marijuana that you are seeing mostly 
Mexican or do you have Colombia?
    Mr. Gonzalez. I would say it is mostly Mexican.
    Mr. Souder. Is the cocaine mostly Colombian?
    Mr. Gonzalez. Yes, we believe all the cocaine that comes 
across originates in Colombia.
    Mr. Souder. Same with heroin?
    Mr. Gonzalez. No, we see very little Colombian heroin here, 
it is mostly Mexican heroin.
    Mr. Souder. Do you think there will be an increase in Asian 
heroin if that port becomes----
    Mr. Gonzalez. That is certainly a good possibility, yes.
    Mr. Souder. The only place that is dominant right now is up 
in Seattle, Vancouver, San Francisco, but that----
    Mr. Gonzalez. That could change, because that port, as I 
said, cuts out several days of travel and it is just logical 
what is going to happen here.
    Mr. Souder. We will probably have some written questions 
both to Customs in Washington, to Border Patrol on what is 
planned at the Presidio crossing and what is happening with 
that port down there and how we are planning to shift, because 
it also will affect what is coming from farther south.
    In the--continuing with Mr. Gonzalez, in Laredo, in Nuevo 
Laredo, they are clearly having major shootouts as 
organizations are changing and it has spilled across the border 
down toward McAllen as they reach across the border to 
assassinate people, the different trafficking organizations. 
Could you, on that map, kind of give an idea of what major 
Mexican cartel are controlling the El Paso Sector? Does that go 
down further on the border here, do they tend to recognize 
where the New Mexico border is?
    Mr. Gonzalez. No, we believe that the major organizations 
that are operating in this area also extend both into New 
Mexico and east into Texas.
    Mr. Souder. Has the fight that is happening down in Laredo 
spilled over to Juarez?
    Mr. Gonzalez. The violence you mean?
    Mr. Souder. Yes.
    Mr. Gonzalez. Juarez is one of the most violent cities that 
I have ever heard about or seen, but that violence does not 
spill over into El Paso, it sort of stays on that side, unlike 
what you just said, that it is spilling over into our side in 
Laredo. That is not happening here.
    Mr. Souder. What is the town where there were six Americans 
killed? Falcon Lake, in the Zapata area, in the last few weeks. 
Because Cario, his group is fighting for control and I just 
wondered if that was--what is hard to figure out is are we 
matched up on the U.S. side like the cartels are matched up on 
their side, or when we have our sectors cross over, are we not 
matched where their cartels are, because we have--are we doing 
a pass-off? And that is what I was trying to figure out, how 
they were lined up down here as we were working the border on 
this side.
    I am going to yield to Mr. Deal at this point. Actually, 
let me yield to Mr. Reyes.
    Mr. Reyes. When you talk about matching up resources 
against the cartels, probably Border Patrol would be the one 
that would be in a position to comment. Do you want to comment 
for the chairman on the question he was asking Mr. Gonzalez?
    Mr. Beeson. Basically we do deploy our resources in a 
manner that is consistent with what is going on in the area, so 
if we have information about activity in a particular area, 
then we will concentrate resources there, either through 
staffing, cameras, things of that nature, other pieces of 
technology that we use, sensors, things like that, to combat 
the threat of narcotics being brought into the country.
    Mr. Reyes. And they also have an extensive use of 
informants through anti-smuggling. They do not just limit anti-
smuggling to people smuggling, they run the gamut--arms 
smuggling, certainly narcotics and also on the lookout for 
terrorists.
    One thing that I would like to point out for the record, 
Mr. Chairman, is that there are pockets along our border on the 
Mexican side of Middle Eastern, primarily business people. I 
know Juarez has a substantial community and when you talk about 
our region here, it is good to know that--good information to 
have and to know that when you are talking about kind of the 
metro-plex area, you are talking about an area of about 3 
million people, when you take into account El Paso, Las Cruces 
and Juarez, a city of--the official population released by the 
Mexican Government is about 1.4, 1.5 million but most people 
will tell you it is a lot closer to 2 million. And the region 
itself is about 3 million inhabitants, which puts a lot of 
pressure, since we are doing this enforcement part of it, on 
the law enforcement agencies that have that kind of 
responsibility and that routinely work fairly closely. You 
know, there are some limitations, and I know when you get your 
briefing at EPIC, they will be able to give you some of the 
information that these gentlemen cannot give you in open 
testimony, but they will give you the classified briefing on 
the narcotics organizations, they will actually show you a 
schematic on how they operate and obviously they cannot do it 
in open forum, for security reasons. So you will find it very 
interesting.
    I have a couple of areas that I want to focus on in my 
time. For Mr. Beeson, a critical component of being able to 
manage the border, even with Operation Hold the Line in place, 
is staffing and also how you supplement the staffing and the 
capability to monitor the border with technology. Can you, for 
the committee, elaborate on--I know we have had a shortfall in 
the amount of staffing that even I requested when I was Chief 
here, in order to maintain the integrity of Operation Hold the 
Line, and it would be important to get those kinds of figures 
to the committee. If you do not have them with you today, 
certainly get them on the record.
    But can you comment on those things--staffing and 
technology?
    Mr. Beeson. There are 1,100 Border Patrol agents here 
within the El Paso Sector, that is for 289 miles of border and 
I think 125,000 square miles or 225.
    It is important to control the border, for there to be an 
adequate mix of staffing both for the technology and for the 
agents. You need the mix with the cameras, with sensors and 
things like that. Those are all things that enhance what the 
agents are able to do when they are out patrolling the border. 
It is an extra set of eyes or an extra set of ears for the 
agents as they do the work that they are doing out there.
    It is important to continue to increase staffing. In a 
number of locations, we are receiving more cameras this year, 
which we will be deploying in strategic locations. So they are 
all important pieces to gaining control of the border, is to 
get that staffing mix, that technology mix, to help control the 
area.
    Mr. Reyes. Will you be able to provide staffing figures to 
the committee--the number of agents that the El Paso Sector--
and it would be valuable for you to ask every one of the nine 
chiefs that have responsibility along the U.S./Mexico border to 
give you their staffing plans; not what they have currently on 
board, but what they feel would be the optimum level of 
staffing to provide border management. Because one of the 
misconceptions when we talk about border control, you cannot 
seal off the border, but you get into a lot of diminishing 
returns.
    I think my colleagues and I many years ago, over 10 years 
ago, came up with a model that if we managed the border with an 
85 percent control factor, that is about the optimum that we 
could hope for. That includes not only staffing but also the 
technology that Assistant Chief Beeson talks about.
    And it would also be helpful for you to give the committee 
the information on the kinds of cameras, particularly the ones 
that are mounted in remote areas on poles, the kinds of ground 
sensors that you have, you have infrared, you have magnetic, 
you have seismic. All of those are important components because 
in Congress when we fund these programs, especially now under 
Homeland Security, we need to understand the expertise that the 
law enforcement agencies have, in particular Border Patrol, to 
be able to fund the kinds of sensors that they need, and camera 
systems.
    Are we going to have another round?
    Mr. Souder. Yes.
    Mr. Reyes. OK, so I will stop right there. I do have some 
questions for a couple of the other panelists.
    Mr. Souder. Mr. Deal.
    Mr. Deal. One of the most alarming reports that I think any 
of us have received have been some media reports of military on 
the Mexican side and police on the Mexican side being engaged 
in drug smuggling and in an instance or so even firing on the 
U.S. officials. Could you comment on the degree of that 
involvement that you have detected and conversely, the degree 
of cooperation that you are receiving from the Mexican law 
enforcement authorities to deal with this drug problem--any of 
you.
    Mr. Beeson. I will go. In the El Paso area itself, which of 
course are the two west counties of Texas and New Mexico, we 
have had in the past incursions of Mexican military, no 
evidence that they were involved in narcotics smuggling. The 
big one that we had, it appeared to be a case that they got 
lost. We do not have concrete information regarding narcotics 
smuggling and other government officials.
    What we do have in this sector is--and I mentioned this in 
my statement--was the Mexican liaison unit. And what that unit 
does for us is it coordinates and communicates on a daily basis 
with officials in Mexico--the police, the military, other 
government officials, consular officials, things like that. The 
purpose for that is to improve safety on the border, to try and 
make sure that incidents like the one that happened in Santa 
Teresa a number of years ago do not occur again, to increase 
safety for the officers both on the Mexican side and on our 
side that are patrolling that border, and for the people that 
are crossing that border, because there are a number of issues 
with bandits and things of that nature.
    We do work very closely with them and then, of course, 
there are some things that we will not share, in terms of 
information and things like that. But we have a pretty good 
relationship with them here in this area and we enjoy a good 
level of cooperation.
    Mr. Gonzalez. Mr. Vice Chairman, I just want to make a 
couple of comments on the cooperation issue. Just last week, I 
met with the head of the Mexican Federal Agency of 
Investigations, which is like the FBI. They also handle drug 
enforcement. And we are, at the present time, exchanging 
information and working together on major investigations, which 
I will be glad to address later with you or with your staff.
    Mr. Deal. One of the most recent developments that we 
understand has occurred is that the Supreme Court of Mexico has 
now determined that they will not extradite if the individual 
faces the potential of a life imprisonment, even though it may 
be subject to pardon or parole. That obviously holds the 
potential of interfering with breaking up major drug cartels, 
those involved in large scale drug trafficking. That appears to 
me to be quite a contrast with what we have in Colombia, where 
they have very much cooperated with the extradition of the 
high-level individuals back to our country for prosecution.
    Could any of you comment about whether that change in the 
rules relating to extradition has presented problems up to this 
point and do you anticipate that it would present problems in 
the future?
    Mr. Gonzalez. The extradition issue, we had some 
discussions on that yesterday. The Mexican Government, as you 
said, they will not extradite someone who is facing a life term 
or a death sentence. That is their law. But we can work with 
them if we are willing to, for example, charge a different 
crime or a lesser crime that does not have the death penalty or 
life imprisonment as punishment. They indicated that they 
will--something along the lines of 30 years, 40 years, 
something like that, they do not have a problem with it, but I 
believe that we just--for the time being, we are going to have 
to live with that, with no extradition if there is a death 
sentence or life imprisonment.
    Mr. Deal. That has already presented problems in my State 
with regard to gang activity in which drive-by shootings or 
other similar crimes have been committed and the individual is 
successful in fleeing back across the border. That, to me, 
long-term, poses some very, very significant problems and one 
that our prosecutors are already raising concerns about at the 
State level, that they are faced with these problems. And in 
effect, even if they have a case that is extraditable, the 
procedure that Mexico requires virtually requires a trial in 
Mexico as a prerequisite to being able to obtain extradition. 
That is a very non-cooperative attitude, if there is any 
desire, in my opinion, in the part of Mexico to cooperate in 
this problem.
    Second round, I may explore that attitude a little further. 
Thank you, Mr. Chairman.
    Mr. Souder. Thank you.
    I want to come back, before moving on to a different angle, 
to two different things, because I think it is important to 
distinguish, for the record. We are not asking about ongoing 
investigations, we are asking in general terms and I think, Mr. 
Beeson, given the fact that the question went on the record, we 
have to have a direct answer under oath.
    Are you saying that you do not believe that--because the 
impression was that things are going just fine with the Mexican 
military and police. I do not think the facts speak to that, 
there is a tremendous corruption problem and are you saying 
there is no corruption on the other side and that they have 
been cooperating, or are you saying that we have cooperation 
problems and there is corruption on the other side?
    Mr. Beeson. I am not saying that there are no corruption 
problems on the other side, there are. They cooperate with us 
on some issues, things that we can work together on, and 
normally around safety and things like that.
    We do not--well, I do not have any information today 
regarding Mexican military or Mexican law enforcement 
involvement in narcotic smuggling, that would be something I 
would have to research.
    Mr. Souder. What about protection?
    Mr. Beeson. Or protection. That is something that I would 
have to research and provide to the committee later.
    Mr. Souder. Have you seen them interdict or help you in 
interdiction when you spot people coming across?
    Mr. Beeson. We have. I can speak to a couple of occasions 
that I have personal knowledge of. In Deming, NM, a vehicle 
crossed the border on our side laden with narcotics, the agents 
engaged in an attempt to stop that vehicle, it ran south into 
Mexico. Our officers contacted the Mexican military and they 
did go and apprehend that vehicle and I want to say it was 
around 600 pounds of narcotics out of the house in Palomas. So 
they did take action there.
    We have another case, and I want to say it was in Fabens, 
another deal where the narcotics made it south and we contacted 
the Mexican police and they did go and apprehend them.
    Mr. Souder. So is it your testimony that it has improved on 
the Mexican side, the same, worse? I am not asking specifics, I 
am asking in general terms.
    Here is the problem we have in the U.S. Congress and with 
the American people, is there is intelligence that--on ongoing 
investigations that you do not want to do, there are obviously 
diplomatic relations between the two countries, but you cannot 
go to the U.S. Congress, which is dependent on democratic 
elections, ask us for additional money for agents, ask us for 
additional money to work the border and then say oh, we are not 
going to tell the people why you need this money. Because one 
of the things we are having in the narcotics area and in the 
border patrol area is increasing unwillingness of people who do 
not live along the border to pay for additional costs along the 
border, if the border people say things are going fine because 
there is political pressure on the trade question that you do 
not want to deal with.
    It is much like when we deal with inner city crime in the 
United States, you cannot say oh, we do not want to have an 
image that we have a bad problem, but we want the other 
taxpayers to help address the problem, but we do not want to 
acknowledge the problem is there. We either have a problem or 
we do not have a problem and that is one of the challenges we 
have in dealing in the public arena.
    I just read a book, which I do not believe is particularly 
accurate, I have dealt with this stuff, Along the Border, or 
whatever it is called, by Mark Bowden, and he makes some very 
serious charges about the agencies in the Federal Government 
and it is important that when we have the opportunities to make 
those responses, to say yes, we understand, we are trying to 
deal with those, some of these things are exaggerated and the 
general public's impression of corruption is over-exaggerated, 
but we understand there is a problem. The charges are pretty 
much around the table around the country and in Washington that 
there has been a playing down by the different agencies and 
that you all have been somewhat shackled because of concern 
that it would affect different trade debates.
    I represent an area where I have some concerns about 
trucking and trade things, but basically we are in an 
inevitable path in the North American continent to trying to 
work with Mexico and Canada, but to do that, we have to figure 
out what we are actually dealing with, so when we--I am going 
to be at the U.S./Mexico Parliamentary sessions in just a few 
weeks, I have to know, you know, is it doing better, doing 
worse, where are our specific problems. And if it is doing 
better, that is great and we need to get that message out. But 
that is what I am trying to get a handle on here because in the 
last few days we have seen many Mexican military units on the 
other side for explanations we do not fully understand.
    And we will get that to some degree in private briefings, 
but I think it is also important that the general public 
understand that there are some unusual things going along the 
Mexican border that are visual to the open eye that do not meet 
standard tests of logic. And if you are not seeing that in this 
sector, then we need to figure out how to address that question 
in the other part of Texas sector. Because what I could see 
with my eyes made no sense. The question is is that happening 
up in this area too or is this area different from what I saw 
in the other part of Texas?
    I mean I saw guys with all kinds of arms who were not 
particularly happy to see Border Patrol agents.
    Mr. Beeson. We do see people, military, down on the border 
on the Mexican side.
    Mr. Souder. And by the way, the other thing we are hearing 
constantly, farmers and ranchers and people in villages tell us 
that they see the Mexican police and/or military or people who 
have stolen uniforms which is another possibility, coming 
across providing some protection. Are you all aware of that and 
is it happening in this sector?
    Mr. Beeson. We do receive reports on occasion of instances 
where folks have come across with narcotics loads using tactics 
that would appear to be military, wearing uniforms that would 
appear to be military. We have not apprehended anybody doing 
that but we have received information of that sort.
    Mr. Souder. So basically--because in our Arizona hearing, 
quite frankly, we had a lot of undocumented allegations and at 
this point, it would be your testimony that while there is 
enough undocumented allegations to make us concerned, the fact 
is we have not directly proven those type of allegations and 
the general public should know that we are committed to 
trying--is it fair to say you are committed to trying to 
establish that because it would be important information for 
our government to know. Let me assure you, if we learn there is 
any political pressure to disguise that type of incursion 
occurring, there will not be a pleasant reaction out of the 
U.S. Congress, there will be an explosion out of the U.S. 
Congress. At the same time, we have to be very careful and the 
general public and the news media needs to be very careful 
about trafficking in unsubstantiated information from people 
who may in fact just like--and this is easier for the American 
public to understand right now--is that in Iraq, clearly a 
number of uniforms were stolen by forces with Saddam to try to 
make it appear like U.S. soldiers were doing certain things. 
And that can happen in other places too and that what we need 
to deal with are facts and that is one of the things we are 
trying to get to here.
    We will followup and we can hear the confidential cases, 
but I am trying to get a general on-the-record reaction of--
would you say it is better or worse in the region as far as how 
it has been developed?
    Mr. Beeson. I would say overall the relationship is better.
    Mr. Gonzalez. Obviously I cannot comment about those issues 
on the border, but as it pertains to the investigative side, I 
served in Mexico in the late 1980's and I have a relationship 
with Mexican authorities now. And I can tell you that at the 
Federal level, the level of cooperation has increased 
dramatically, it is basically unprecedented. And like I said, I 
have met, I think three times already, with the head of the 
Mexican FBI and we are working, exchanging information. I 
believe time will tell, but I think things are looking up in 
that area now.
    Mr. Souder. Well, that is really important for us to know, 
because some Members have an unrealistic expectation of how 
fast Mexico can change. In a low income culture where you could 
be, like in Colombia, there is also false expectations where 
you can be murdered one way or the other--if you help them you 
get in trouble and if you do not help them you get 
assassinated, your income level--we have huge problems on our 
side of the border even all the way up to Indiana, people are 
offered huge amounts of money to leave their farm for a day so 
a load can be exchanged. We are not above these kinds of 
problems in our country as well, and what I want to know is are 
we getting incremental progress and are you seeing it in this 
sector.
    So I thank you for your comments and your patience with 
that. I did not get to my regular round of questioning but I 
will now yield to--I wanted to followup on the National Park 
Service question, so I will do it next time. Mr. Reyes.
    Mr. Reyes. You know, in every hearing that I have 
participated in, the chairman is the man, so you can take as 
much time as you want. This is critical information that you 
are looking for. So I would be glad to cede you my time if that 
is what you want.
    Mr. Souder. Why don't you go ahead. When I do my last 
round, if I want to go more, then I will.
    Mr. Reyes. Well, let me just give you some personal 
testimony because the issue of corruption, as my colleague 
Congressman Deal was bringing up, is not limited to Mexican 
corruption. In fact, during the time that I served as Chief in 
McAllen in south Texas from 1984 to 1993 when they moved me 
here, of the three sheriffs that we dealt with in Cameron 
County, Hidalgo County and Starr County, all of them have 
subsequently been prosecuted and are doing time for corruption, 
on the U.S. side.
    We always prioritized working and making sure that we had a 
good working relationship, understanding, as Assistant Chief 
Beeson said, understanding the limitations of that relationship 
with our Mexican counterparts. But you absolutely have to have 
that relationship if you are going to be successful in any way 
in doing the kinds of things that you are doing, patrolling the 
border.
    But corruption is on both sides. The sheriff of, I believe 
it was either Presidio County or the adjoining county, was also 
arrested, and he was smuggling a load of--maybe it was a ton, 
2,300 pounds or something like that, of cocaine through a 
Border Patrol checkpoint. The Border Patrol busted him and he 
is doing time in Fort Worth today, and that was a sheriff on 
our side. Just for the sake of information, that sheriff was an 
Anglo sheriff, the three sheriffs in south Texas were all 
Hispanic sheriffs.
    Mr. Souder. Are these deputy sheriffs or----
    Mr. Gonzalez. No, these were full sheriffs, the main guy, 
like you are going to be hearing testimony from Sheriff Leo 
Samaniego, who has got the responsibility for El Paso County.
    So corruption and the tentacles of corruption reach all 
across the border. We have had, unfortunately, Border Patrol 
agents, DEA agents, FBI agents, that have--Customs, Immigration 
inspectors--that have been investigated and prosecuted for 
corruption, because there is so much money out there. So we 
want to make sure that we understand that corruption tentacles 
cover both sides of the border.
    Now let me just address a couple of the other issues, which 
is the Mexican military and the U.S. military. The Mexican 
military is deployed on the Mexican side of the border because 
of the concerns that we have had since September 11. So 
President Fox made an agreement with President Bush that they 
would deploy an increased number of military units to the U.S./
Mexico border to try to help with that control and that kind of 
concern that we have.
    I am glad that you are going to Inter-Parliamentary because 
I have been going since I have been in Congress and we have 
gone the gamut of issues and of good and bad relationships with 
Mexico, as it pertains to border enforcement.
    I know that people think that it is a quick fix and it is 
an easy fix to militarize the border, but nothing could be 
further from the truth. We need to support professional, 
trained, bilingual people that understand and know the culture 
of the border rather than bringing in the 82nd or the 173rd or 
the 3rd Infantry, or whoever, for the reasons that it is not 
going to be cheap, it is not going to be easy and you could be 
opening our military soldiers to issues of personal liability, 
as happened in Redford, TX, which is by Marfa, when a military 
unit that was doing some listening post, outpost, you know, 
working covertly, unfortunately killed an 18-year-old young 
man. And I will get you that information.
    So those are all real issues that we that live on the 
border and certainly with the kind of background that I have, 
as the only Member of Congress that has that experience, we 
need to really have other colleagues and certainly committees 
like the one that you chair, have them really understand the 
dynamics of why it is important that we look at the border 
region as a place where you can spend a dollar and save 
spending $100 in some interior location like your district or a 
Georgia district or some other area in the interior, because it 
makes sense to invest in the border because this is where these 
guys that are the experts can tell you that dollar will go much 
further than spending $10 or $100 in Dallas or Denver or Duluth 
or some other place.
    So I will be happy to continue to work with you and, you 
know, at least bring my expertise. You know, there is good news 
and bad news in this. The good news is I am the only Member of 
Congress with this background and the other part of the good 
news is that I get consulted. The bad news is that sometimes 
you guys do not follow my advice or my recommendations. 
[Laughter.]
    Mr. Reyes. But that is the nature of the beast. But 
certainly doing these kinds of hearings--and you know, you are 
absolutely right, ask the pointed questions. Now Assistant 
Chief Beeson is not the chief here, so I would recommend that 
you call in the nine border chiefs of the Border Patrol and the 
nine or however many Customs and DEA and FBI have, and in the 
comfort of your office, just be pointed with them and say look, 
we are trying to make some decisions here that affect your 
ability to function at America's frontline of defense, which is 
our Nation's borders, and we need to have the straight 
information.
    A lot of times, from personal experience, let me tell you, 
Mr. Chairman, when I testified--and I testified many times 
before Congress as the Chief--they literally--the agency 
literally locks you into the testimony that has been prepared 
by the agency that you are--unless you know the questions to 
ask, the witnesses are locked into what they can say and the 
amount of area that they can cover. We need to change that 
because these guys have a lot of information, they have a lot 
of expertise and we ought to be able to tap into it so that we 
can make the kinds of funding decisions that will affect our 
ability to function as a country under homeland defense.
    So I offer my--I am at your disposal in terms of working on 
these issues.
    Mr. Souder. In my aggressiveness with the question, and I 
know Mr. Beeson had to come in at the last minute to substitute 
for the Chief, and, as a Republican who supports the Republican 
administration, I understand the importance of having an 
organized presentation and not getting off into kind of what my 
sociology professor used to call ``minanti'' as opposed to the 
bigger picture. At the same time, you know, that you are under 
oath in front of this committee. This is an oversight 
committee, it is historically the function of this Government 
Reform Committee to challenge and to make sure even within our 
own administration what we are doing is right, and you know 
what, if you are inaccurate under oath, your supervisor, who 
helped guide the testimony, is not in trouble, you are. Which 
is why it is important to remember in this committee, it is a 
little bit different in our approach.
    Mr. Deal.
    Mr. Deal. As I indicated in the beginning, what you do here 
has impacts everywhere. Let me give you the significance of it. 
This is my 11th year in Congress, when I was elected in 1992, 
the problem of illegal immigration in my north Georgia district 
was the No. 1 social issue that we faced. It has not gotten 
better, it has gotten far worse.
    The two largest independent school districts, public school 
districts, in my Congressional District which stretches and 
borders--used to border four States, now it still borders three 
States--the largest population in those two school districts is 
Hispanic, non-English speaking students. They exceed the 
population of native Anglos, they exceed the population, by 
far, of African American students.
    The impacts on my Congressional District are tremendous 
and, as the chairman said, we need some honest answers. We need 
to know what can we do to make sure we don't continue along 
this same road. If it is going to continue, and we are all 
saying we are doing everything just fine and everything is 
working just right, then my district is going to be in terrible 
shape, because over the last 11 years it has not gotten better, 
it has gotten far worse.
    Let me ask you a question with regard to enforcement. And I 
am somebody who voted for NAFTA by the way. Are there any 
sanctions on trucks, vehicles that are in the organized 
transportation industry, who are caught with illegal drugs in 
their transport? Now I know the vehicle probably is seized, the 
driver may be arrested, but are there any consequences to those 
people who are trying to ship those goods using those methods? 
Those trucking firms, are they put on any kind of a list, are 
they sanctioned in any fashion?
    Mr. Longoria. Yes, we enter information on the respective 
importer, manufacturer or wherever the investigation leads. We 
enter that into a system of records, a data base, and we use 
that information to target accordingly. So somebody who has a 
history of----
    Mr. Deal. What do you mean by target accordingly?
    Mr. Longoria. Well, somebody who has a history or has a 
higher risk of importing narcotics or violating laws or being 
non-compliant, would incur more inspections or closer 
inspections, more examinations, that kind of thing. They would 
also be precluded from participating in Industry Partnership 
Programs, as I had pointed out earlier. People that are highly 
compliant are allowed to participate in these Industry 
Partnership Programs and they get expedited processing. So they 
would be precluded from participating in that.
    Mr. Reyes. Can you identify specifically the system that 
you use? Because I think it is important for the members of the 
committee to have that information.
    Mr. Longoria. It is called ACS, Automated Commercial 
System, it is a system of records. It is being revised and 
modified under the Department of Homeland Security, it is soon 
to be called ACE, the Automated Commercial Environment. And it 
collects data on merchandise that is imported, who imported it, 
who manufactured it, what is the point of origin, what is the 
country of origin. As I indicated, in Industry Partnership 
Programs, we get people to participate in these programs and 
secure the supply chain to push the border out, so to speak, 
create a virtual border, and secure the supply chain that way. 
Our part of the deal is that we will offer expedited treatment 
to those participants.
    People who are caught violating the law would be 
precluded--and you are right, we do seize the trucks. That is 
one of the consequences.
    Mr. Deal. Well, you know, under the trade laws, if someone 
is violating trade rules, then there could be sanctions with 
regard to losing quota, etc. It would seem to me that we ought 
to have something comparable. You know, they are not just 
shipping an extra pair of blue jeans in here, they are shipping 
drugs. And if you can be sanctioned for violating your quotas 
on shipping extra blue jeans, you certainly ought to be 
sanctioned in some fashion--and it is probably beyond the 
jurisdiction of what any of you have control over--but it would 
seem to me it would be one of those extra sanctions that we 
ought to look at, as we are looking in trade rules and trade 
negotiations. It certainly I think has some merit to it for 
those who would take advantage of the system.
    Let me ask a question, and I guess Mr. Beeson, this 
probably is more directed at you. We have heard a variety of 
opinions as to how people who are detected illegally coming 
into this country are treated. Assuming they are not carrying 
contraband, we are told that in Laredo, they may be given 15 
chances of being caught--if they are that unlucky, they are not 
very good at it--but 15 times before any action is taken 
against them. In other parts along the border, we have heard 
oh, they get five free shots at it before we do anything with 
them.
    What is the policy here, if there is a policy?
    Mr. Beeson. In New Mexico, I want to say it is 10, if we 
have apprehended you 10 times, then we will prosecute you, 
unless there are special aggravating circumstances. If you 
fought with the officers or lied about something, something 
like that, then they may not wait until there is 10 
apprehensions.
    In Texas, I believe it is 5, it is 5 to 10. Same deal, if 
we have caught you that many times, we are going to prosecute 
you, but if there is aggravating circumstances; you know, you 
had false documents or you fought with the officers, whatever 
the case may be, then we may not wait for the 5 to 10 times to 
prosecute.
    Mr. Deal. Could I ask just one more followup on that?
    Mr. Souder. Sure.
    Mr. Deal. Let me give you an example of how bad it is 
though once they get past you. In my hometown, my son is the 
local district attorney there, and the outcry in my community 
is--well, first of all, we cannot conduct court without a 
translator; second is that even though you are detected and 
arrested for a misdemeanor DUI, you can be arrested for as many 
as three DUIs in my hometown and be an illegal alien, be known 
by the judge, know by the court authorities on every one of 
those instances that you are illegally in the country and this 
is your third DUI, and they will not be deported. Now, you 
know, that's better than having 15 shots at the border, you 
know. You have already got past there and you got into the 
country and we still cannot get anybody to do anything about 
it. That is the magnitude of the irritation and I am afraid, as 
the chairman says, the kind of hostility that is growing in the 
interior of this country, to the problems that we are facing.
    And that is just an everyday experience in our hometown, 
because you see, we cannot run them back to the border and say 
go home, you know, we have to depend on somebody else to do 
that.
    Mr. Souder. Let me ask this question and if you cannot 
answer it, Mr. Beeson, maybe either an INS or somebody at the 
Port Authority or we will get somebody at the Port Authority, 
do you know how many people actually get caught 10 times? Have 
you had cases like that?
    Mr. Beeson. We have had cases like that, but I did not 
bring those numbers with me today, I can get that for you. We 
call them rescividists, so it would be a matter of looking up 
to see how may rescividists we have had.
    Mr. Deal. They are just commuting to work if they are doing 
that.
    Mr. Souder. And I would like the record to show, obviously 
the smuggling organizations know these because as a functional 
matter, it means that we are not, generally speaking, detaining 
or arresting people for just being an illegal immigrant, as a 
practical matter. But that can be enforced at any given time 
and nobody coming across should think oh, well, I get 10 shots 
at this, because you never know on any given day whether or not 
that rule may change or how it will be enforced at a given 
place. But it is important for us to understand, because I do 
not think most of the Members of Congress understand that there 
are variables along the border as to how it is enforced and 
that those numbers are there.
    Now to obvious question back to Members of Congress if we 
say how come you are letting them do 10 times, well, what would 
you do with the people anyway, what would be the net impact, 
how would the patterns change, what would happen with that? It 
is not a clearcut oh, let us just stop it at one, but that 
would have consequences. But it is something that is deserving 
of public debate, because this has been done without really 
congressional oversight.
    I say that because this committee, up until directly 
switching to Homeland Security and will now be under that 
subcommittee, we had immigration oversight and it was only in 
the last period that I learned that it was that specific. And 
it is not as though I have not been on the border for 6 years. 
And so this has not been--I can guarantee you--not been a 
publicly debated strategy and what alternatives and how we 
would deal with it. I am not even saying we would not even wind 
up with the same strategy, it is just that is part of the 
oversight function, is to figure out how it is working.
    I want to move to some questions with Mr. Deckert on the 
National Park. First, I met with the National Park Service and 
I believe the Inspector General, because I had a person who 
took leave from the Park Service, who worked with--it was a 
ranger at Yosemite, who came up when people were beheaded and 
he has been involved in that, he is now back at Yosemite. And I 
learned a little bit about the law enforcement problems inside 
the National Park Service.
    And it was clear from going over to Organ Pipe that 
contrary to some impressions, it was not a matter of training, 
it was a matter of they had multiple agents there, he was 
getting direction from a helicopter, he had his vest on, it was 
a fluke shot that got underneath and came out underneath the 
vest, and the guy was clearly, you know, behind bushes where 
you would not have been able to see him. It was not a lack of 
training, it was a combination of a fluke and a guy who was 
dedicated to killing whoever was there, whether it was a Border 
Patrol person, DEA or a Park Service.
    But one of the charges is that there have not been complete 
and accurate statistics on crime in the parks and the other 
public lands. Are you keeping drug statistics? Do you have a 
systematic way to do that inside your park? Because clearly, 
now particularly, having been identified as the second highest 
park at risk, you are under kind of more scrutiny in this area. 
Could you explain a little bit what you are doing, what that 
has done to resources inside your park, whether you feel there 
is additional training needed, how we tackle this at a park 
like yours.
    Mr. Deckert. Yes, I think we are keeping accurate 
statistics now and I think there probably has been a problem in 
the past with the service-wide system that is used. As I 
explained, we have had an increase in drug trafficking this 
past year and we are concerned about it. I have been in contact 
with Bill Wellman, who you know from your dealings out in 
Arizona, the Superintendent of Organ Pipe Cactus, and what he 
is telling his fellow superintendents along the border who have 
not experienced what he has experienced at Organ Pipe, is the 
time to do something is now. He wished he had this knowledge 3 
or 4 years ago, before it really mushroomed at Organ Pipe. And 
we are attempting to do that through the funding that has been 
reprioritized by our regional office. It is not additional 
funding, but it is taken away from other needed projects, but 
recognizing this is a priority now, we have had funding so that 
we can hire more rangers. Also recognizing that the National 
Park Service mission differs from the other organizations 
represented here today in that we are primarily protecting 
resources and visitors. But when it comes to a time when drug 
and illegal alien smuggling affects protecting park resources 
and visitors, we get more involved, to the detriment of 
specifically protecting park resources in other parts of the 
park.
    We have right now 11 full time law enforcement rangers in 
Big Bend National Park, 245 miles of border, including both the 
park and the Rio Grande Wild and Scenic River, which is about 1 
percent of the sector up here that has the Border Patrol 
protection. And we cannot do the job without our partnerships 
with these other agencies.
    But funding is our main concern, both for the things we are 
talking about here--communication systems, dispatch operations, 
even infrastructure for housing for employees. A couple more 
Border Patrol agents stationed in the park would be of great 
help to us.
    Mr. Souder. How many Border Patrol are in the park at this 
time?
    Mr. Deckert. We have two that live in the park now.
    Mr. Souder. Two for the 245 miles?
    Mr. Deckert. Right. Well, there are others outside the park 
that assist as well.
    Mr. Souder. By assist, do you mean that they come in on a 
regular basis inside the park, or that they come on an on-call 
basis?
    Mr. Deckert. On call primarily.
    Mr. Souder. So as far as general surveillance in the park, 
there's two Border Patrol plus your park rangers?
    Mr. Deckert. Correct.
    Mr. Souder. Mr. Beeson, what would be a typical per-50 mile 
Border Patrol? In other words, if you took a region of 200 
miles and you have how many, 60? 400? In Arizona, it is pretty 
intense.
    Mr. Beeson. It is very intense in Arizona because that is 
our hot spot right now. It is going to vary based on the 
station. A number of places--the Marfa Sector staffing-wise, 
they have--the last time I can recall was around 186 for the 
entire sector.
    Mr. Souder. Which is how many miles?
    Mr. Beeson. I am sorry, I do not know.
    Mr. Reyes. In territory, Mr. Chairman, that is one of the 
largest geographic areas of responsibility. That is what I mean 
that you need to have that staffing model because----
    Mr. Souder. We will get it.
    Mr. Reyes. Well, because it varies now. When you are 
talking about an area like Big Bend Park, that is an area--
certainly two agents, I would never even begin to defend the 
lack of resources in there, because I would say as a Chief, 
with the kind of activity that they have, the kind of concerns 
on narcotics, I would have a couple of stations in there with 
maybe 35 to 60 agents to be able to control that area and that 
would be only if we were also able to get technology in there, 
the kinds of cameras that Assistant Chief Beeson was talking 
about, the kind of sensors, both seismic, infrared and 
magnetic, that would give you an alert. Because you get into a 
situation where there is so much territory that you cannot 
afford to saturate that area like you would in El Paso or in a 
metropolitan area like El Paso-Juarez. Here you actually need 
agents within eyesight of each other as well as the technology 
to be able to--because you have more people.
    You have the advantage of remoteness, rugged terrain and 
the ability to monitor electronically in a place like Big Bend, 
but two agents is ridiculous or pathetic to think that they 
would be able to provide the kind of coverage that you would 
need for that area. You would need, I would say easily 30 to 60 
agents.
    Mr. Souder. Because we do need and want--as we do our 
regional field hearings, we will pull back to the Washington 
level and then do an oversight in Washington looking at the 
broader, but clearly what we are looking for, where are there 
holes.
    We are dealing with multiple questions--illegal 
immigration, narcotics, potential terrorism, and then all the 
other types of illegal trafficking that goes through. Guns and 
money tend to be moving in the other direction. In that, one of 
our challenges is to try to stay a step ahead. I want to 
followup with a couple more things on the park side.
    As you said, the mission of the National Park Service is 
not to provide border security. The mission of the Park Service 
is to protect the resources. Unfortunately, as we learned in 
Organ Pipe, it is very difficult to protect the natural 
resource if it becomes a huge illegal immigrant and/or drug 
trafficking area. They have some of their trails set down. At 
this point has there been any--to what degree has the illegal 
immigration or drugs that are moving through Big Bend affected 
any camping area, utilization of trails, resource degradation? 
In Organ Pipe, even cutting of cactuses has been a problem. 
Anything at this point, or are you still at the front end of 
the curve?
    Mr. Deckert. We are pretty much at the front end of the 
curve. We have not seen that much resource degradation from 
this kind of activity, but then again, we have a huge area, 
even compared with Organ Pipe, and we do not even have enough 
people to do the inventorying and monitoring of resources to 
see what kind of actions may have been taken out there and what 
kind of degradation may have occurred.
    We would like to have funding for that too, so that we can 
see and show if this comes that there is a problem. And we also 
again want to be proactive by doing irregular patrols and doing 
the sorts of things, law enforcement actions, and protection 
actions that would hopefully keep that from beginning there, as 
it did at Organ Pipe. Once the flow is opened, it seemed to 
continue on, and we would like to stop it in the beginning.
    Mr. Souder. If your rangers are diverted to this, what will 
they not be doing that they were doing before?
    Mr. Deckert. Oh, a variety of things in the rest of the 
park, regular road patrols, back country patrols, you know, 
protecting the resources from just inadvertent or activities 
that visitors might harm the resources, and protecting them 
from each other and from getting hurt out there in the park, 
search and rescue operations. We provide just about everything 
there in the park from structural fire control to search and 
rescue, besides law enforcement. So those are all duties of the 
law enforcement folks in the park. It is a wide range of multi-
specialist type duties.
    Mr. Souder. I thank the Park Service today for sending the 
representative of agencies and other parks, it was particularly 
helpful to get the Amistad quotes on the amount of narcotics in 
the record, and we will ask for an additional written statement 
on that. At some point, hopefully, at the very southeast 
portion of Texas, we will pick up Padre Island when we look at 
the Brownsville Sector and that Corpus Christi Sector of the 
border. But it also suggests that as we work to protect some of 
our Federal land agencies, then it pushes it in other places 
but I wanted to make sure I picked that up.
    In this amount of marijuana seized, do you believe that 
some of this is that you were not keeping as much data in 2000, 
prior to 2000, or--in other words, it is a function of how much 
you have actually seized but are we looking for it more now or 
has it actually increased? I mean, you are growing 
exponentially, 1,300 in 2000, 10,000 in 2002, 3,700, is that in 
3 months?
    Mr. Deckert. I am not sure, which park are you referring 
to?
    Mr. Souder. In Big Bend--oh, that is Amistad, excuse me, 
sorry about that. Could I have the person from Amistad come up? 
I want to ask him a question on that. I need to swear you in, 
if you will come up and raise your right hand.
    [Witness sworn.]
    Mr. Souder. Will you give your name for the record and 
spell it, because we did not have it.
    Mr. Malloy. Bruce Malloy, M-a-l-l-o-y, Chief Ranger at 
Amistad National Recreation Area in Del Rio, TX.
    Mr. Souder. Mr. Deckert, in his--I think this was in your 
written testimony, I do not think you said this in your 
verbal--said 1,300 marijuana pounds seized at Amistad in 2000, 
10,000 in 2002, 3,700 so far this year. Now is that through 
March?
    Mr. Malloy. Yes, sir, it is.
    Mr. Souder. So if you took that times four, we would be 
looking at close to 16,000 this year, if it kept that pace.
    Mr. Malloy. That is correct.
    Mr. Souder. Is that because there is a more active presence 
right now or is this a new trafficking route that has opened?
    Mr. Malloy. Well, you know, I cannot be sure exactly what 
it is attributable to, but the rangers there feel that there is 
significant more activity in Amistad over the last couple of 
years than they have seen in previous years. And Amistad is 
working very cooperatively with the other agencies, so it is 
not just our rangers that are dealing with this activity. And a 
lot of those seizures are done cooperatively, particularly with 
the Border Patrol and U.S. Customs.
    Mr. Souder. Well, thank you, that is the type of thing we 
are looking for. Also where are the changes and what are the 
patterns because these are new things for us to think of at the 
Federal level, both on the Parks Committee and here, of man, 
they are going to move right through, but you can see the 
trails and you can see, particularly over at Organ Pipe but 
also up in Olympic or other places where you try to protect 
nesting areas and so on. You put them off limits to our agents 
and the next thing you know, all the illegals and all the drug 
trafficking is going right through the nesting areas and the 
whole purpose to protect them, they are now trampled to death.
    The other question that I wanted to relate to Mr. Deckert, 
is I thought it was interesting where you raised about these 
informal border crossings. Could you give us a little more 
history on that and then I probably will go to Customs and the 
other agencies in Washington to get some written testimony and 
response. So anticipate that they are going to respond to what 
you are saying, so we can have a good back and forth.
    Is there anybody from Customs here who would be able to 
address that broader question of the border crossings at Big 
Bend here today?
    Mr. Longoria. I have Special Agent Ken Cates from BICE that 
is here. I do not think he has been sworn in, but----
    Mr. Souder. Does he have--he is in charge of El Paso, does 
he go as far as----
    Mr. Longoria. Which includes the west, yes.
    Mr. Souder. Could you come forward, so we can--if you will 
raise your right hand.
    [Witness sworn.]
    Mr. Souder. Mr. Kenneth Cates, is that right, C-a-t-e-s?
    Mr. Cates. That is correct.
    Mr. Souder. Special Agent in Charge, El Paso, for 
investigative. I would like to have Mr. Deckert describe a 
little bit and then if you have any comments on the border 
crossings.
    Mr. Deckert. OK, without going into stories about my aunt, 
I would like to give you a little background.
    I worked at Big Bend from 1975 to 1980 as the chief 
naturalist down there, came back about 3 years ago as 
superintendent.
    The fellow who had been living over in Mexico and was the 
owner of the restaurant in Boquillas, which was a traditional 
place where people from the park would go over and have a meal, 
buy a souvenir and come back into the park--it had been 
traditional for generations, died not long after I got back 
there. And I was concerned that with his informal leadership 
status in the community, that perhaps the wrong element might 
move in. And sure enough, not long after, we had some drug 
sales in the park across from that crossing. And at that time, 
we, the Park Service, closed down the crossing for a few months 
because we wanted to make a point that was not acceptable and 
we did not want that kind of element over there. And 
subsequently we have had meetings and cooperation with the 
State police of the State of Coahuila, who now patrol more 
regularly up into that area and know of our concerns and want 
to keep it safe for visitors to go over there.
    Of course, 11 months ago, when the border crossings were 
closed, all of them, they were saying that the reason for that 
was because they had enough agents to do that now and patrol 
those, but also because of September 11 and what had happened 
and concern about terrorism after that.
    Our concern was though that, as opposed to this area, which 
is a huge population center, we are on the frontier of both 
countries. There are no paved roads up to the villages or 
anywhere near them across from Big Bend National Park, and 
anywhere on the border is almost a crossing just like those 
traditional border crossings. You close those three little 
points on the border and you still have 245 miles where people 
can continue to cross. And so our concern was with the 
villagers over there in the villages who, for generations, had 
made their living on tourist trade legally, that they would 
have perhaps no other alternative than to leave, the villages 
dry up, that opportunity for visitors to go over and enjoy that 
culture would disappear or they perhaps would turn to illegal 
activity.
    So we have been working with Customs here in El Paso to 
develop some sort of official way to open one or more of those 
crossings and allow that to continue. As I said, with hopefully 
friendly relations restored with those villages, that they 
would be more likely to use legal means of making a living as 
opposed to illegal means, and perhaps work with us in trying to 
keep out the kind of element that we do not want to get into 
this country.
    Mr. Souder. Mr. Cates, would you like to make some comments 
on this and where we stand in progress?
    Mr. Cates. Well, it is a very complex problem, complicated 
in large part due to the current Federal laws that mandate 
entry into the United States, both for merchandise as well as 
for individuals, be through approved and formally established 
ports of entry. So that, particularly in the Big Bend area, in 
essence that 245 mile border, to be in strict compliance with 
the current Federal law, every entrant would have to go through 
the port of entry at Presidio. And as has been pointed out 
here, it just traditionally has not been--it is just not 
feasible, you just cannot conduct your commerce, you cannot 
conduct many just human necessities to be able to travel down 
the river and make formal entry through the established POE 
there, port of entry.
    So the Customs Service or in our new configuration, has 
submitted some proposals to our headquarters to try to address 
that particular problem. A number of innovative issues are 
being considered up in our office of rulings and regulations 
now. They range from some specialized paroling of significant 
or humanitarian type significant individuals into the United 
States such as firefighters and law enforcement officials from 
Mexico, as well as something as far reaching and innovative as 
establishing a foreign arrival zone in the Big Bend area which 
would give greater access to the now closed informal crossings.
    But it is very difficult to balance the needs of the local 
area with the needs of national security, which in large part 
drove the closings of those historically informal crossings.
    Mr. Souder. Knowing I am headed a little into a quagmire 
and I am going to try not to get into this for too many 
minutes, but I want to kind of get the parameters of it so we 
know where we are headed from here, because this is an 
interesting phenomena that while this is a dramatic example, 
probably exists many places along the border, but with some 
nuances that I would like to followup.
    So first off, you are saying these crossing were illegal in 
the first place. By informal, you mean illegal crossings.
    Mr. Cates. That is correct.
    Mr. Deckert. But also we had a memorandum of understanding 
with U.S. Customs that allowed U.S. citizens to cross over and 
come back for awhile, and we were operating under the 
assumption that was in effect.
    Mr. Souder. And when those crossings occur, were you--
without understanding, because I am not from here, only know a 
little bit about the park, a little bit about the cities 
there--are there communities on the U.S. side that are 
grandfathered into the Big Bend Park where they were going to 
visit or are they going up through the park to the highway 
system in the United States?
    Mr. Deckert. Well, when Mexicans came over at those 
crossings, in most cases, they were going to the developed 
areas in the park. There is a little grocery store----
    Mr. Souder. To enjoy the resources of the park.
    Mr. Deckert [continuing]. Gas station and so forth, and 
then back across the border.
    Mr. Souder. And is there a way when they came across that 
they could have gone through the park, beyond the park and 
would there have been a checkpoint at the roads coming out of 
the park to make sure that was not a way for illegal 
immigration or narcotics to move through an authorized route? 
Is that why Customs, their concern on national security became 
greater? Let me ask that question, Mr. Cates.
    Mr. Cates. Well, actually I believe it was the Border 
Patrol that, you know, is the entity tasked with closing those 
borders, but that certainly is a factor in that it is a vast, 
remote, very rugged area and there are no formally established 
areas of ingress and egress that you could sort of choke off 
illegal traffic. So once you get into the Big Bend area, you--
if you are successful, you certainly have access to I-10.
    Mr. Souder. Let me try that question one more time because 
it was--I mean that was part of the answer.
    From the illegal border crossing points, were there 
informal or legal roads that connected to the ways to get in 
and out of the park?
    Mr. Deckert. Yes.
    Mr. Reyes. Mr. Chairman, can I--there are three types of 
ports of entry. There are Class A, which is a 24-hour, fully 
staffed one; there's a Class B that is open during designated 
times and then there is a Class C, which is what we are talking 
about here, which are the--it is not an illegal crossing. I 
just want to make sure that gets on the record. It is an 
understanding that in these remote areas, communities do not 
have access to doctors, to shopping and those kinds of things, 
so what is being characterized as informal crossing is 
basically sanctioned by the Department of State. That part of 
it I am not completely clear on, but it is sanctioned 
government to government so that firefighters, so that doctors, 
so that shopping and those kinds of things can be accommodated 
in both ways.
    Because interestingly enough in this area, in some of these 
communities, the U.S. citizens that live on our side depend on 
the Mexican stores and the Mexican community for medical 
services and stuff like that, as remote as it is in there.
    So I wanted to make sure that the chairman did not go away 
with the wrong impression here, because there are those three 
types of crossings.
    Mr. Souder. But we have some places on the north border 
like this and they are shut. One is near Seattle, which is a 
community that is actually on a peninsula going back to Canada, 
and they have to go through a border crossing, they can no 
longer do the informal--and in Minnesota. And part of the key 
question here is does this connect to a regular road. In other 
words, I understand the need for some flexibility, does it 
connect to a regular road?
    Mr. Deckert. Yes. Conceivably people could go on the roads 
up into the United States. But there are two Border Patrol 
checkpoints on both of those major highways that go into and 
out of the park.
    Mr. Souder. So the Border Patrol checkpoint could catch 
that.
    I want to ask one more question on the Port Authority to 
Mr. Longoria. In the south Texas part of the border, they are 
clearly making a high percentage of the currency seizures that 
are reported to the Federal Government right now, yet you have 
more narcotics going back. Are you looking at more outbound 
checkpoints or are you going to work with that? Because 
presumably currency is coming back through here in even greater 
amounts.
    Mr. Longoria. Right. I guess we do not have the resources 
to do as much of it as we want to do. We have been focusing 
more on outbound under alert level orange, and we have been 
somewhat successful. We are also looking for any neutrality 
violations, firearms, that kind of thing, and work very closely 
with the El Paso Police and the Sheriff's Office using 
forfeiture fund moneys and so we set up special operations to 
target southbound, but we do not have resources to do that all 
the time. So I do not know if that answers your question, but 
we are doing it, not as much as we would like to.
    Mr. Souder. Because tracking the money is one of the main 
ways to catch people.
    Mr. Reyes, do you have any other questions?
    Mr. Reyes. There are several things that I wanted to make 
recommendations to you, Mr. Chairman. The first one is the 
Border Patrol and other agencies, in particular the Border 
Patrol, has a system of reporting that is called the G-23 
Report. You still use it?
    Mr. Beeson. Yes.
    Mr. Reyes. It has broken down all the information that you 
are interested in. The categories are divided in there for the 
kinds of people that are arrested, male, female, children. The 
last entry. I would recommend that you ask the Border Patrol 
for the G-23 reports. It is a monthly report and your staff can 
evaluate and analyze it and give you a synopsis of the 
information that you are looking for.
    Mr. Souder. Thanks.
    Mr. Reyes. On everything from seizures to people they 
arrest, people they encounter.
    Mr. Souder. One of things--we were trying to figure out why 
this border crossing has less currency seizures even though is 
has more of the other.
    Mr. Reyes. Right. So anyway, that's a recommendation.
    The other thing I wanted to say--and I know that the 
Sheriff and I hope the Chief of Police in the next panel, make 
a comment on this because the High Intensity Drug Trafficking 
Area designation for border communities, and particularly for 
this west Texas area, that pot of money is being used to fund 
many different things, including this year, things that are 
being funded other places with the money from that account that 
is desperately needed along the border region for the kinds of 
reasons that you are hearing in this testimony. So I would 
recommend--and I will be alert to the next panel to make those 
issues clear to you, but that is one part of it.
    The other one is that the State Criminal Alien Assistance 
Program--and this is in reference to my colleague making the 
comments about the impact that illegal immigration has had in 
his community and his district. This is the program that we 
provide money to local State governments to be able to 
compensate for the impact of illegal immigration all across the 
country.
    Mr. Deal. No, just certain States. We do not get it.
    Mr. Reyes. Well, you are eligible for it, you have to put 
in for it, but you are eligible for it.
    Mr. Deal. My understanding is it is only the top five.
    Mr. Reyes. No, and I will work with you on this, but let me 
also tell you that incredibly enough, this was a program that, 
although it is very much--very important and very much needed 
by our communities all across the country, that was targeted 
for elimination by OMB and we successfully fought that plan to 
do that.
    We need to increasingly weigh in on these kinds of issues 
because they affect the very kind of impact that you are making 
a point here in this hearing. So I will be glad to provide you 
the information on that.
    And I will yield back my time, because I know----
    Mr. Souder. Mr. Deal, do you have other questions?
    Mr. Deal. I know we are running short on time and have two 
more panels to do. Thank you all for being here.
    Mr. Souder. Thank you each for your testimony, we will 
followup with some written questions. Anything you would like 
to submit additional, any charts and graphs you would like to 
submit for the record, and then if you will work with us with 
your workload and trying to respond to the written questions 
that can fill out the record.
    Thank you very much, each of you, for coming today and for 
your testimony.
    If the second panel could come forward: Mr. Carlos Leon, 
chief, El Paso Police Department; Mr. Leo Samaniego, sheriff of 
El Paso County Sheriff's Department. If you will remain 
standing, we will do the oath, if you would raise your right 
hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of our witnesses 
responded in the affirmative. I welcome you here today and 
thank you for having us in your wonderful community and 
providing us with a safe visit thus far to El Paso.
    We will start with Chief Leon.

 STATEMENTS OF CARLOS LEON, CHIEF, EL PASO POLICE DEPARTMENT; 
AND LEO SAMANIEGO, SHERIFF, EL PASO COUNTY SHERIFF'S DEPARTMENT

    Mr. Leon. Good morning, Mr. Chairman and members of this 
very critical subcommittee. I am Carlos Leon, the Chief of 
Police for the El Paso Police Department.
    The El Paso-Juarez borderplex encompasses about 2 million 
people. Economic conditions and geographic terrain couple to 
make a fertile ground for drug traffickers. Estimates are that 
a very significant portion of all drugs entering the United 
States do so through this region. This is evident by the many 
large seizures in and around the area that are intercepted on 
their way to larger metropolitan areas such as Los Angeles, 
Chicago and New York.
    The El Paso Police Department is one of the primary law 
enforcement agencies in the region serving a population of over 
600,000 with approximately 1150 officers. Federal and local 
initiatives fund numerous innovative law enforcement efforts 
attempting to stem the flow of drugs into the United States 
through our ports of entry and other points between them. 
However, the Rio Grande River does not deter smugglers and the 
vast desert areas in the region provide easy access points 
across the border.
    Recent national events have diverted Federal, State and 
local funds to ensure homeland security. Increased security at 
international borders has caused drug trafficking organizations 
to change their tactics as well as creating new challenges to 
law enforcement agencies. Rather than transporting illegal 
drugs through the ports of entry, drug smugglers are instead 
choosing other points along the border by land and by air.
    Marijuana is the drug most often passed through the El 
Paso-Juarez area followed by cocaine and heroin. Other drugs 
such as Rohypnol, Ecstasy and methamphetamines are also seen, 
but with less frequency. These drugs are often warehoused in 
stash houses in residential areas of the city. Local hotels and 
motels are frequently used for clandestine drug transactions. 
Drug smugglers use a variety of secret compartments and other 
covert methods of bringing drugs into the United States 
including a complex series of underground tunnels joining El 
Paso and Juarez.
    To effectively address the drug trafficking problem in the 
area and ultimately prevent large amounts of drugs from 
reaching the rest of the United States, the city of El Paso and 
the El Paso Police Department need a significant increase in 
resources. High Intensity Drug Trafficking Area [HIDTA] funding 
is critical to our success. Increasing personnel alone will not 
solve the problem. The department needs state-of-the-art 
equipment and technology to improve law enforcement efforts in 
remote areas, for conducting surveillance, and gathering 
intelligence. Training opportunities are limited in the El Paso 
area and because of our geographic isolation from most major 
cities, require expensive travel costs and time away from duty.
    To effectively stem the flow of narcotics through this area 
and ultimately prevent large amounts of drugs from reaching the 
rest of the United States, the city of El Paso and the El Paso 
Police Department need a significant increase in personnel and 
resources dedicated specifically to narcotics trafficking 
reduction. Increasing personnel alone will not solve the 
problem. The department is in need of state-of-the-art 
equipment and technology to improve law enforcement efforts in 
remote areas, for conducting surveillance and gathering 
intelligence. Additional resources, such as prosecutors, 
probation officers and judges, are needed to followup and 
supplement law enforcement efforts.
    HIDTA funding is critical to our success in combating drug 
trafficking in the region. Due to Federal budget constraints, 
our funding has remained level for 4 consecutive years, placing 
increased burdens on local resources. Drug trafficking on the 
international borders is not just a local problem. It is a 
national crisis with far-reaching social and economic 
ramifications. Furthermore, smugglers will bring anything 
across the border if the price is right. As easily as they can 
cross a large load of marijuana or cocaine, so could they bring 
weapons of mass destruction--if they have not already.
    State and local agencies are in the greatest need of 
assistance as they shoulder the burden of law enforcement 
efforts and prosecution of criminals. Investing in State and 
local resources that are familiar with the situation, the 
region and the systems currently in place would greatly affect 
the flow of narcotics through El Paso. The El Paso Police 
Department is tasked with not only protecting its citizens from 
the threat of drug activities and related crimes, but with 
protecting every major city in the United States from the drugs 
that enter daily through the Juarez-El Paso corridor. If 
success in curbing the drug trade in cities like Los Angeles, 
Chicago and New York is to be achieved, we must start in El 
Paso.
    Thank you very much.
    Mr. Souder. Thank you for your testimony. Sheriff 
Samaniego, thank you for coming today.
    [The prepared statement of Chief Leon follows:]

    [GRAPHIC] [TIFF OMITTED] T0205.030
    
    [GRAPHIC] [TIFF OMITTED] T0205.031
    
    Mr. Samaniego. Thank you, sir. Mr. Chairman, members of 
committee and Congressman Reyes, thank you very much for the 
opportunity to testify before you today.
    Realizing that our Nation's security is our No. 1 priority, 
that does not diminish the problem that we have with drug 
trafficking. In many ways, these two issues go hand in hand. 
The very routes, methods of concealment and human resources 
used by illicit organizations for drug trafficking and alien 
smuggling are also a threat to our Nation's security.
    The national drug abuse problem has a significant impact on 
the community of El Paso, and the entire southwest border. 
Drugs flowing across this border are, by and large, not staying 
here. Drug trafficking is not a local problem, it is a national 
problem, and it requires the attention of our Federal 
Government. The failure to stop drug smuggling here today could 
mean 1,000 kilograms of marijuana will end up on the streets of 
St. Louis, Detroit, Atlanta or some other city in the United 
States.
    Efforts to secure our border against terrorism have not 
curbed the use of the southwest border as the most significant 
gateway of drugs being smuggled into the United States. Federal 
resources have been expanded in cities to our north to combat 
drug use and distribution, yet most of the drugs have 
originated from this border.
    If illicit organizations can bring in tons of narcotics 
through this region and work a distribution network that spans 
the entire country, then they can bring in the resources for 
terrorism as well.
    There are four issues that plague this area. First, the 
Federal Government is expecting local agencies to assist with 
the national drug problem.
    Second, local agencies have been asked to add resources to 
national security efforts.
    Third, the Federal Government is expecting more of its 
Federal agencies on the southwest border.
    And fourth, local and Federal agencies have been 
overwhelmed with manpower shortages that deal with these 
issues.
    My agency's efforts to assist with the national drug 
problem is most clearly seen in our involvement in two 
programs: The High Intensity Drug Trafficking Area and the 
Edward Byrne Memorial Grant.
    The HIDTA program in west Texas is an excellent example of 
the cooperative efforts of local, State and Federal agencies 
working together to address a problem. The West Texas HIDTA 
Executive Committee has consistently developed strategies to 
address the drug trafficking threat in our region. This success 
is due to the local planning, decisionmaking and execution that 
the HIDTA program embraces.
    The achievement of the West Texas HIDTA, however, has been 
limited by level funding. With an increase of only $150,000 
over the past 4 years, combined with the increased costs in 
services due to normal inflation, the West Texas HIDTA has been 
forced to make cuts that impact the effectiveness of its multi-
agency initiatives.
    The Edward Byrne Memorial Grant program has a long history 
with my department. The El Paso County Metro Narcotics Task 
Force has a successful history in battling local and regional 
drug distributors in our area. This success is also threatened 
by funding cuts for this program.
    While all the Federal law enforcement agencies in this 
region could use more resources, I will highlight several that 
need your specific attention. Since September 11, 2001, several 
agencies were reorganized to improve national security. The 
first, as seen in this region, was the Federal Bureau of 
Investigation. With a shift in priorities, the El Paso Office 
of the FBI drastically reduced the number of narcotic 
investigation groups. The impact of this has been enormous.
    The Drug Enforcement Administration office in El Paso is 
under-manned for the level of drug trafficking in this region. 
It is inconceivable to think that the agency with a 
responsibility of fighting this Nation's drug problem is so 
poorly under-staffed in El Paso.
    And in closing--I thought I had it down to 5 minutes, but 
obviously I did not. [Laughter.]
    Let me say that time is running out. I do not think it is 
time to just ignore the problems that we are having here on the 
border. Everybody is short-handed, they are short of resources 
and I think the American people, the people in this community 
for a fact, demand the best that we can give them.
    Again, gentlemen, thank you for the opportunity to be here 
with you.
    [The prepared statement of Sheriff Samaniego follows:]

    [GRAPHIC] [TIFF OMITTED] T0205.032
    
    [GRAPHIC] [TIFF OMITTED] T0205.033
    
    [GRAPHIC] [TIFF OMITTED] T0205.034
    
    [GRAPHIC] [TIFF OMITTED] T0205.035
    
    [GRAPHIC] [TIFF OMITTED] T0205.036
    
    Mr. Souder. Thank you. And your full statement will be in 
the record and your comments toward the end were very helpful 
in your written.
    Mr. Samaniego. Yes, sir.
    Mr. Souder. I was going through it additionally, because 
one of the dilemmas we have is that the--because we are all 
under tremendous budget pressures and because it is so easy to 
get into a political battle over the funding priorities, whose 
deficits are bigger, I am betting my deficit is bigger than 
your deficit. I mean I know it is even proportionally. Trying 
to do that, often it is hard to get specific data. You gave us 
some very good data here.
    We have been trying to monitor what is actually happening 
inside the FBI, reducing from six to two; is the DEA picking up 
the slack? The answer is no, they are not picking up the slack 
here. You say they have fewer agents than the FBI, in your 
testimony.
    We often ignore the importance of the U.S. Marshal's 
Service. We are not able to say that in your verbal, but in the 
written, it says this is the largest, highest number of Federal 
warrants in the Nation for Federal marshals.
    Mr. Samaniego. Yes, sir.
    Mr. Souder. Has that office stayed stable? Is that 
increasing, decreasing, do you know?
    Mr. Samaniego. We have had the same number of deputy U.S. 
Marshals in our Fugitive Task Force from the inception of that 
grant. They have not been able to put anyone else there. We 
have not been able to because of the lack of funding.
    Mr. Souder. What is the functional result, when you do not 
have enough U.S. Marshals? What is the functional result of not 
having enough marshals?
    Mr. Samaniego. There are so many outstanding warrants that 
there is no way, with the number of people that we have 
assigned to the task force--and it is the U.S. Marshal, my 
department, I believe the Police Department, Border Patrol and 
other agencies participate--there is no way that we can keep up 
with the warrants that are generated almost daily. People not 
showing for court, etc.
    Mr. Souder. In other words, it does not do us any good to 
pass laws, it does not do us any good to say we are going to do 
this, if in fact we cannot go get them. That is in effect what 
you are----
    Mr. Samaniego. We have not been able to put them all in 
jail within 1 year, let me put it that way. There are just too 
many of them.
    Mr. Souder. You said that with the funding you have been 
forced to reduce the number of personnel assigned to the 
HIDTAs. How many did you have?
    Mr. Samaniego. Yes, sir, we have been getting level funding 
every year, which means we get the same amount, and the cost of 
operations goes up every year and the salaries, fringe 
benefits, gasoline and so forth. Somewhere along the line, you 
have to cut something and usually it is an investigator, maybe 
equipment, something they need to be able to do their jobs, 
sir.
    Mr. Souder. So have you had a reduction in personnel? Your 
testimony said you reduced----
    Mr. Samaniego. Yes, we have.
    Mr. Souder [continuing]. From four to three?
    Mr. Samaniego. I do not have the specific numbers. We just 
went through a reorganization.
    Mr. Souder. If you could provide that to us.
    Mr. Samaniego. Yes, sir.
    Mr. Souder. We will be meeting with the HIDTA tomorrow I 
believe.
    Chief Leon, have you seen increased pressures on your 
department, has it stayed about the same, what changes have you 
seen? How long have you been chief?
    Mr. Leon. I have been with the Police Department 29 years, 
I have been chief for about 4\1/2\.
    Mr. Souder. You have a lot of experience.
    Mr. Leon. Yes, I was born here and raised here in El Paso.
    There has been a tremendous increase, it is not slowing 
down. We have to assign an inordinate amount of our personnel 
to work the narcotics arena, so it is taking its toll in what I 
think is a national problem rather than a local problem. In 
many cases, we are not reimbursed for all the calls that we 
handle at the international bridges because it does not mean 
just one police car going out and taking care of--whatever the 
threshold is, we pick it up. So it is a whole area of personnel 
that we have to use and store the drugs before the court date.
    Mr. Souder. You mentioned twice in your testimony, showing 
the importance to you, on this equipment question. I presume 
you have gone through most of the programs. Is it more you do 
not have enough equipment, is it that there are certain things 
that you need that you are not getting? We are obviously 
redoing the one grant program underneath the Office of ONDCP, 
we are about to mark that up again. Is there something in there 
that you are not getting or is it more just not enough dollars?
    Mr. Leon. It is a little bit of both. We do not have enough 
of the equipment that we do have. We cannot afford some of the 
more sophisticated surveillance equipment. We have an aviation 
unit that is in dire need of parts, we have 1960 vintage 
helicopters and that we obtain through a surplus program. The 
parts that are needed to keep them up in the air are not being 
produced any more, so we have to rely--now we are looking for 
another purchase that really the city cannot afford, but it is 
very critical that we get these aircraft up in the air because 
they are a tremendous help insofar as stemming the tide.
    Mr. Souder. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Sheriff, just for the record, when you say that you have 
been flat-lined in terms of the budget over the course of the 
last 4 or 5 years under HIDTA, is it because there is no money, 
no additional money in HIDTA or is it because there is 
additional money but it is going other places?
    Mr. Samaniego. Well, a little bit of both, sir. Let me just 
give you an example about the Southwest Border HIDTA, which is 
one HIDTA encompassing the entire southwest border, it is 
California, Arizona, New Mexico, west Texas and south Texas. We 
are west Texas. When the first HIDTAs were funded, or the 
Southwest Border HIDTA was first funded, I believe it was 1991, 
each partnership--that is what they call us--received $6 
million. And let me read what they are getting now, this is the 
2002 fiscal year HIDTA funding.
    Arizona is getting 24 percent of the total amount, which is 
an increase of $7 million, they are getting $11.2 million. 
California is getting a little over $11 million. South Texas is 
getting $8.5 million. New Mexico is getting $7.7 million and El 
Paso--and I think everybody in the world considers this the 
primary smuggling area into the United States--we are receiving 
$7.6 million. So we are hurt in this respect.
    Last year, they had almost $1 million in supplemental 
funding. California got $500,000, south Texas got $250,000, 
Arizona got $47,000, New Mexico and west Texas did not get one 
penny.
    Mr. Reyes. Do you have the statistics in terms of workload 
for the corresponding areas that you just read the funding 
figures for?
    Mr. Samaniego. No, sir, I have no idea what they produce. I 
think El Paso is one of the--or this West Texas HIDTA is one of 
the highest producing HIDTAs in the United States.
    Mr. Reyes. Would it be possible to get those?
    Mr. Samaniego. I think we can; yes, sir.
    Mr. Reyes. And provide them for the committee for the 
record.
    Mr. Samaniego. Yes, sir.
    Mr. Reyes. Thanks.
    There are a couple of other things that I wanted to make 
sure we got on the record, Mr. Chairman. One is that not only 
are U.S. Marshals understaffed, but remember that it does not 
do us any good to have the agencies that are out there 
arresting the people that are violating the laws, we have to 
have the marshals to be able to transport them, we have to have 
the money to be able to fund the jails. And I want the Sheriff 
to comment on that. But we also have to have the prosecutors 
and the judges.
    We have been traditionally neglected in all of these areas 
along the whole border region. And that is--we will furnish you 
the statistics, my office has them, I will furnish them to you 
for the record, but I wanted the Sheriff to comment on the 
detention part of it and the amount of money that you get and 
the amount of money that really local taxpayers have to eat 
because of the lack of Federal funding.
    Mr. Samaniego. First of all, let me begin by saying that 
the SCAAP, which is the State Criminal Alien Assistance 
Program, was finally funded in 1998. In El Paso, we have been 
getting a little over $1 million every year. This year, we have 
I believe almost 13,000 men and women that were illegal aliens 
that were charged with some crime and they wound up in our jail 
and yet, if we follow the guidelines of the SCAAP program, only 
589 are eligible to be thrown into the pool nationwide, hoping 
that we get a little bit of money back to El Paso County. They 
also cut the funding from $550 million, which is what we had 
last year, and even at that amount we got about 10 cents to the 
dollar. Now they cut it down to $300 million and everybody in 
the United States will be submitting names. They have added 
more things that eliminate some of the prisoners. Now we have 
gone from 3 days in jail to 4 days in jail. And every time they 
do that, you eliminate a whole bunch of them.
    We have a contract with a U.S. Marshal to house pretrial 
Federal inmates and they, of course, pay El Paso County for 
that at the rate of $57.98 a day and we have been averaging a 
little over 800 per day that we keep here. But there is no 
profit margin there for El Paso County. The Marshals will send 
in the auditors, they will audit the cost, what it costs to 
keep one inmate in jail and this is the figure that they come 
up with, not the one that I say this is what we are going to 
charge you. It is the actual cost and they cannot give us one 
penny over that. So right now, we are having at least 800 
daily. And it is a burden on El Paso County and at the same 
time a blessing, I guess, they do bring in several million 
dollars to El Paso County.
    Mr. Reyes. Again, reiterating what the Sheriff said about 
the number of cases, about 13,000 cases where illegal or 
undocumented people were involved and of those, he got 
reimbursement for about 500.
    Mr. Samaniego. We have not got it, Mr. Congressman, we have 
not got it yet. They are still going through the process of 
everyone registering on line and then submitting the 
information that they require. We probably will not get--maybe 
July or August we will know what we are getting, and it is 
going to be minimal.
    Mr. Reyes. But that is going to be about 500 of those 
cases, right?
    Mr. Samaniego. We will have--we put in for 589.
    Mr. Reyes. 589 out of 13,000.
    Mr. Samaniego [continuing]. Out of 13,000 that met the 
criteria for partial reimbursement.
    Mr. Reyes. So that nets out less than 10 cents on the 
dollar that is spent by the El Paso County, that gets 
reimbursed through a Federal program, where the responsibility 
is on the Federal Government.
    Mr. Samaniego. Yes.
    Mr. Reyes. Because they are charging the Border Patrol, the 
Customs, the INS with maintaining the integrity of our border 
area. They have not been able to, so that generates 13,000 
cases, of which only 500 or so are able to qualify for SCAAP 
funding.
    With that, I will yield back, Mr. Chairman.
    Mr. Samaniego. We are in the process of probably adding 
additional beds to our two jails in order to meet the demand 
for space. And this is--right now, there has been some changes 
made with the U.S. Marshal and I understand there is a 
different system, another individual that will deal with the 
counties to find beds for pretrial Federal inmates. We have not 
been able to talk to this individual. I cannot move forward 
with the building until we know what is going to happen, 
because we have to be assured that they will be able to bring 
more inmates to El Paso County. They keep telling me they have 
1,400-1,500, they have them scattered all over west Texas. They 
would love to have them here in El Paso, but we would have to 
build more beds, and the county is willing to do that.
    Mr. Souder. Mr. Deal.
    Mr. Deal. I would like to thank both of you gentlemen for 
coming today and I want to tell you that your experiences are 
not unique just to the border. Sheriff, 40 percent of the 
prisoners in my county jail are illegal aliens. We are so 
overcrowded with illegal aliens in my county jail that my 
sheriff, who met with me about 3 weeks ago, he is having to 
farm prisoners out to other counties. We are paying other 
counties more per day to house our prisoners than we are being 
reimbursed by the Federal Government for holding their own 
prisoners. So it is a huge problem, it is a problem everywhere.
    Let me walk through a few things though that I would like 
to understand.
    Mr. Leon, do you have a municipal jail or do you use the 
county jail facilities?
    Mr. Leon. We use the county.
    Mr. Deal. OK. When you have someone coming across at a 
border crossing, who has drugs, etc., one or both of you 
respond to that I assume with your units, is that correct?
    Mr. Leon. Yes.
    Mr. Deal. Are you the initial detaining law enforcement 
agency that detains those individuals initially?
    Mr. Samaniego. No, sir, let me explain. If it is under the 
threshold--and I do not know if you are familiar with that 
word, but if someone comes in, for example, or tries to cross 
the border with 48 pounds of marijuana, it falls under the 50 
pound threshold that the Federal Government has.
    Mr. Deal. So they will not take the case as a Federal case?
    Mr. Samaniego. They will not take the case, they call us or 
the police department. We respond, we pick up the individual, 
store the vehicle, bring in the evidence and so forth and 
charge him with a State crime.
    Now there is another program that I think our Congressman 
Reyes is very familiar with and instrumental in getting for El 
Paso and the southwest border, is the reimbursement for costs 
to house those individuals as well as the prosecution, all the 
expenses of going through the judicial process.
    Mr. Deal. Do you have an estimate as to the number of cases 
or percentage of cases that actually come under your State 
prosecution jurisdiction versus the Federal? Do you have any 
opinions or numbers on that?
    Mr. Samaniego. The last figure that I heard, and I may be 
off, I believe was between 300 and 400 cases a year.
    Mr. Deal. That come to the State level prosecution.
    Mr. Samaniego. Through the State, here in El Paso, yes.
    Mr. Deal. And that is because--one of the phenomena we are 
hearing is that the size of the shipments across the border are 
decreasing and the quantities--more of them, but smaller in 
sizes. One of the implications that would have, of course, is 
that if they are under that threshold limit, they are going to 
put greater pressure on local jurisdictions versus the Federal 
jurisdictions. So obviously that is going to affect your 
operations, I would think.
    Mr. Leon. Absolutely.
    Mr. Samaniego. Yes, sir. I believe at one time, they were 
confiscating the load with the vehicle and then sending the 
individual back across. I do not think that is acceptable, so 
we came into the picture and--but there are a lot of vehicles 
that come across with 46, 47, 48, 49 pounds. They seem to know 
exactly how much they can put in there and maybe the ordeal or 
the penalty may be less than what they would get otherwise in 
Federal court.
    Mr. Deal. How do you all operate on the forfeiture 
provisions? What agreements do you have with regard to 
forfeitures? I would assume that if it is a case that is 
exclusively going to be prosecuted in the State court system, 
do you get all of the forfeitures in those cases or do you have 
agreements worked out with sharing of forfeitures, either 
confiscated vehicles, cash, etc? What is your agreement?
    Mr. Samaniego. We do confiscate the vehicle and if it is 
awarded to El Paso County, we will auction it off. Most of them 
are junkers, they know there is a possibility they are going to 
get arrested and the vehicle seized, so most of them are 1980 
models.
    Mr. Deal. Is that determination made, there again, based on 
whether or not you are going to have to handle the case at the 
State level? Is that the determining factor?
    Mr. Samaniego. Well, if we get the case, the only asset is 
the old automobile really, there is no money involved or 
anything else.
    Mr. Deal. What about if you have a seizure of money.
    Mr. Samaniego. Well, we do get quite a bit of drug 
forfeitures awarded to El Paso County from DEA or the FBI or 
Customs, agencies that we work with, and let me tell you, that 
money is a blessing. We are able to buy equipment, we are able 
to train people. If it was not for that, we would be in bad 
shape.
    Mr. Deal. So that is money you get on top of the other 
reimbursement programs that we have talked about here.
    Mr. Samaniego. Yes, sir. If we participate in a case with 
any of the other Federal agencies, and there is a seizure of 
funds or automobiles or homes, we are entitled to a portion of 
it.
    Mr. Deal. Is there a formula that you follow on that or is 
it case-by-case determination?
    Mr. Samaniego. I believe the Federal Government has a 
formula that they use.
    Mr. Leon. Congressman, as far as the Police Department, we 
have a tremendous working relationship, of course, with the 
Sheriff's Department and the FBI/DEA. When it is a Federal 
seizure, most of time it works out to about 80/20 percent, we 
pick up about 80 percent of whatever was confiscated. When it 
goes through the State courts, we have an agreement with the 
district attorney here where for their cost, it is about 25 
percent, so it is 25/75 percent.
    Mr. Deal. OK.
    Mr. Leon. And I agree with the sheriff, it is a tremendous 
help insofar as augmenting our budget for training purposes and 
what-have-you. But I heard earlier in some questioning as far 
as what are we doing, is there money coming back--there is a 
tremendous amount of money coming back into Mexico and we are 
intercepting some of that. We started what we call the GRAB 
unit, ground, rail and air, and again, it is multi-agency, it 
is a HIDTA initiative and we have been able to in this fiscal 
year alone, we have intercepted just in that one unit, over 
$700,000 in cash.
    Mr. Deal. And you share that forfeitures at the local 
level, some of it going to the Federal I assume.
    Mr. Leon. Well depending on how it is staffed, some of it 
will be Federal, some of it will go to the State and we share 
with the DA or if it's Federal, then it goes 80 percent/20 
percent.
    Mr. Deal. Thank you.
    Mr. Leon. Yes, sir.
    Mr. Samaniego. Every time we have a seizure and we are 
involved, we have to put in a request to share in the 
forfeiture.
    Mr. Deal. Yes.
    Mr. Samaniego. So it is case-by-case.
    Mr. Deal. Thank you. Thank you, Mr. Chairman.
    Mr. Souder. Thank you. Let me briefly for the record state 
a couple of things on HIDTA, some of which we may be able to 
fix a little, some of it is far beyond our ability to fix. Some 
of it I am exasperated with.
    We are having a major discussion right now whether there 
should or should not be a Southwest Border HIDTA. I, former 
Speaker Hastert when he chaired this subcommittee, and others, 
strongly pushed the last administration under General McCaffrey 
in particular, to organize the southwest border. There was some 
resistance initially not only in the HIDTA but in the 
management of the southwest border. Because logic would tell 
anybody looking at the border to say this needs to be looked at 
broadly, not narrowly, that each subsection is going to argue 
that they need more because there is never enough dollars, 
there is never enough to meet it. But somebody has to be 
looking at a broader perspective and say OK, if we harden over 
here, they are going to move over here; if we harden over here, 
they are going to move over here; and to think ahead. Every 
baby boomer like myself was raised under Vietnam and always 
felt like the guerilla guys are always two steps ahead of us, 
we are one behind, how do we think ahead and anticipate the 
next move, not just react. That is the concept of trying to do 
it.
    In the process of trying to do that, some Senators and some 
Congressmen have more clout in the Appropriations Committee, 
have more clout over here or there, and it does not fully make 
sense to look at how the dollars are divided along the border. 
It is more of you look at the different States and try to 
figure out how to combine States. Partly what happened since we 
started the HIDTA program is Houston got a HIDTA, Dallas got a 
HIDTA for north Texas and all of a sudden Texas started to get 
more HIDTA dollars because the Arizona border HIDTA already had 
Tucson and Phoenix as subparts of it. So when new Texas HIDTAs 
came up, the Senators from the other States are saying Texas is 
getting more dollars. So some of your dollars have been 
diverted to other parts of Texas in the original funding 
formula because those HIDTAs were not there. So it is not that 
the dollars are not coming to Texas, it is that the more 
populous areas of Texas and their legislators were stealing it 
from--bottom line, not literally, but you know what I mean--
were taking it from it in the distribution of the border 
States.
    Furthermore, New Mexico hardly has any border and now 
Albuquerque and Santa Fe are in the top of their HIDTA and the 
question is, is this a border HIDTA and do we have a border 
strategy. We are trying to decide whether to wall off 
subsections so the appropriators cannot get at it, to move it 
around. In addition, quite frankly, the program is supposed to 
be high intensity drug trafficking Areas, not high intensity 
usage areas.
    I had an offer early on to make my area a HIDTA, but I did 
not take it because I thought the program was supposed to be 
drug trafficking areas. Yes, drug trafficking occurs 
everywhere, but the question is how do we prioritize on a 
national perspective. But Tip O'Neill's old adage, all politics 
are local, has got--whenever you see a huge bundle of money, 
everybody is in it. And I honestly do not know whether we are 
going to get this unscrambled.
    Clearly in narcotics if we do not control the south border, 
it expands and becomes exponentially more of a problem north. 
But do not hold your breath that we are going to be able to fix 
the HIDTA problems. We will probably deal with it a little. I 
know the drug czar understands--Director Walters--understands 
the pressures in this concept, but whether we get this redone 
with all of the fingers in the pie and the political reality of 
the situation, I do not know; is the answer to your question.
    So we will do the best we can given the budget pressures we 
have and it is very hard to say OK, Houston, by the way, you do 
not have a problem, that is one of the biggest cities in the 
country, they have a huge drug problem. They tell us oh, yeah, 
the big loads are coming into there, they are moving, they are 
jumping the border. It is very difficult to sort through. But I 
wanted to share with you because you are at the point of one of 
the major crossings in the whole system and I wanted to share 
with you the complexity of why it is so hard as individual 
Congressmen to look at it and try to fix it. You know, you can 
put as much pressure as you want on your Congressman and he is 
only going to be able, quite frankly, to fight say Senator 
Domenici, Congressman Kolbe, who is the appropriations 
cardinal, Senator Kyl in Arizona--we each do what we can and in 
the House, we have to get in little packs in order to--clusters 
of us to be able to battle a Senator over here. It is not an 
easy process, he is working hard to do that, we are trying to 
look at the overview. But do not hold your breath on this one, 
this is very hard to try to--the HIDTA program has moved in 
ways none of us intended it to do.
    I also know that every community in the country with 
illegal immigrants and narcotics is struggling with jail space, 
struggling with reimbursement, struggling with different kinds 
of challenges. Your numbers are huge and what we have to figure 
out in a national perspective is if we do not deal with it at 
the border, it is only exponentially going to increase past 
that.
    I do not get elected by the people in El Paso, I get 
elected by the people in Indiana. The people in Indiana see 
their local problems and do not necessarily see the full 
connection to the border at El Paso no matter how much I want 
to talk about it. With the local sheriff saying my jail is 
overcrowded here and there, I am elected by them, that is the 
dilemma we face in the political system.
    Hearings like this help raise it. Statistics like to give a 
13,000/589 number probably overwhelms most people's numbers, it 
is helpful to understand. And then when we say by the way, 
there are people there 10 times and you are not picking them 
up--well, where would you put them. It becomes a fundamental 
challenge for members who ask us that. That is helpful to 
understand.
    I would like to also ask for the record, from my knowledge 
of the border, and just trying to figure out how this works, 
and maybe Chief Leon could address this as well, Sheriff, with 
the possible exception of San Ysidro, as you move east from 
there it is less, this has the most population on the U.S. side 
at the immediate border crossing. There are some cities back up 
clearly if you are going toward Phoenix or going toward San 
Antonio. What are some of the unique challenges you face 
because it is not as though there is a buffer zone before you 
get to the city? Furthermore, to an outsider trying to figure 
out how to drive around this area, you are clearly going along 
and Mexico is to my right; no, Mexico is to my left; no, Mexico 
is north of me. Could you explain some of the challenges that 
you face in local law enforcement with just the intermingling 
and the ability to bring in narcotics, how in the world would 
you deal with terrorism--one guy trying to bring across 
something?
    Mr. Leon. You know, Congressman, there are smugglers who do 
very well--there will be situations where they will stick a 
duffel bag through a culvert and there will be a car waiting 
and within seconds it is gone and they just run back into 
Mexico.
    Mr. Souder. Would you elaborate on what you mean by the 
tunnels?
    Mr. Leon. It is a sewage system that runs even to the heart 
of downtown El Paso, huge tunnels in some places where you can 
even drive a truck through.
    Now one of the problems that we have here in El Paso is 
flooding when it does rain because they have grates, some of 
those tunnels have grates in them and of course, the debris 
will collect and it will just flood certain portions of the 
city. So those smugglers will smuggle people, they will smuggle 
narcotics, they will smuggle anything they want through that 
tunneling system. And this is something that our mayor is 
addressing, we are working with the Federal agencies to address 
this issue.
    We are within, as you just mentioned, seconds of Juarez, 
where we used to have a tremendous auto theft problems here. In 
2 minutes they are across the border, many times we would see 
them drive it across the border and there is nothing we could 
do in most instances. Now, we do not have the problem that we 
used to. I think Dallas, San Antonio, Tucson, Albuquerque have 
a much bigger problem in auto theft side as compared to El 
Paso. But because of the proximity, there is an area in El 
Paso, where we have citizens assaulted if their car breaks down 
on a certain street. Now we are working very closely with the 
Border Patrol and that seems to be easing away.
    As you know, just some months ago we had some Federal 
agents assaulted. So it does add tremendously to our burden, 
where other cities would not worry about their tunneling under 
the city because there is no smuggling going on under there, 
but we do.
    Mr. Souder. Sheriff, do you have anything to add?
    Mr. Samaniego. We have somewhat of a little different 
problem than the city police officers do. We patrol a lot of 
rural areas and right now, the closer you are to the center of 
El Paso, the more Border Patrol you see along the border with 
Operation Hold the Line, and let me say that I think they have 
done a tremendous job reducing the number of people that were 
crossing into El Paso, and the crime rate has gone down as a 
result. I always gave them credit for that. It was our 
Congressman that started that process or that concept.
    But the farther you get from downtown El Paso, you start 
seeing wider gaps between Border Patrol units or any other law 
enforcement, so there is a tremendous opportunity for anyone 
that is waiting on the other side, waiting for the Border 
Patrol car to go by and then they give the signal and here 
comes a bunch of people on foot or trying to drive across the 
river bed.
    So I do not think with the manpower that the Border Patrol 
has or we have, there is no way that we can control the border. 
And that scares me. Anyone can come across and they can bring 
whatever they wish to bring with them. I think it is 
something--we keep talking about this war on narcotics or the 
war on drugs, but we have not really committed the troops that 
are needed for everyone here to do the job. Every individual or 
every pound of narcotics that leaves El Paso, somebody else is 
going to have to deal with the problems. Everything that we 
stop here, you do not have to worry about somebody else having 
to work a case or pick up somebody with an overdose, etc.
    The problem is here. They have increased Federal manpower 
in almost every city north of here. Yet, this is where the 
drugs originate. They go in all directions. I think it makes 
sense to take a little more notice of what is going on here and 
do something about it.
    Mr. Souder. Mr. Reyes, do you have any other comments?
    Mr. Reyes. Thank you, Mr. Chairman. I just wanted to make a 
couple of observations for the record.
    First of all, the chief and the sheriff made mention of the 
uniqueness of the issues and the problems that they have to 
confront because of the proximity of the border. Literally, if 
you will go to Anapra, which is about 10 minutes away from 
here, you will see that the railroad tracks parallel the border 
area, in some areas as close as you and I are sitting here to 
the front row of the auditorium. We have had the distinction of 
being probable the last area in the country that systematically 
was experiencing railroad hijackings. They would stop those 
trains in that area, they would dump cargo from the railroad 
boxcars and drag it across the border. We are talking about 
everything from tires to clothing, to television sets and there 
is a lot of goods that are shipped by train right through this 
very area.
    The FBI agents that the chief was talking about actually 
were working an operation in that area that I am describing to 
you and got badly mauled and beat up, almost killed, by this 
gang of train hijackers.
    Those are the kinds of issues and problems that 
collectively law enforcement agencies have to deal with here. 
The only thing I would ask the sheriff to clear up is when he 
mentioned the word troops, you were not talking about military.
    Mr. Samaniego. No, sir, no.
    Mr. Reyes. OK, good.
    Mr. Samaniego. I do not think the military--and I have all 
the respect in the world for what they do, they are trained to 
kill, fight wars. We are dealing with a different situation 
here, this is not a war where everybody is shooting at each 
other. It takes a very special, well-trained individual to work 
the border, to do--and we have had a couple of incidents where 
young Marines were placed on the border and the results were 
tragic. I do not think we need them on the border. We need to 
increase the Border Patrol, the Customs, Immigration, all the 
other agencies that deal with the problem of now terrorism on 
top of everything else.
    Mr. Reyes. Thank you, Mr. Chairman.
    Mr. Souder. Mr. Deal.
    Mr. Deal. I am not going to another round of questions, but 
I do want to thank all of you for being here and thank you for 
what you do.
    Mr. Souder. I too want to thank you for all you do. Like 
you said, anything you intercept means it is not in my home 
area or somewhere else, somebody is not getting killed. We hear 
anywhere in the Nation where we go, where we hold a hearing, 
everybody we have talked to, 75 to 85 percent of all crime is 
drug and alcohol related, whether it is child support payments, 
bankruptcy, child abuse, spouse abuse as well as direct drug-
related crimes. And some of these leftists around the country 
who act like we should back off of narcotics and everything 
would be just fine--our families and kids and communities would 
be a wreck if it was not for the work that you and others in 
law enforcement are doing. And it is hard enough to do the 
battle now and we thank you for your efforts.
    With that, we will move to panel No. 3. Mr. Bob Cook, 
president of the Greater El Paso Chamber of Commerce; Mr. Ruben 
Garcia, Truancy Prevention Specialist, Ysleta Independent 
School District and Mr. Jose Luis Soria, Clinical Deputy 
Director, Aliviane Drug Treatment Center. If you would please 
stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded positively.
    How do you say your school district?
    Mr. Garcia. Ysleta [pronouncing].
    Mr. Souder. Thank you very much for coming. It has been a 
long hearing. You have the advantage of having heard the 
others. I very much appreciate you participating in this and 
making sure we round out--we have some hearings where we focus 
directly on drug treatment, we have had hearings where we were 
focusing--because we also have oversight over the Commerce 
Department--on trade. But when we try to come in, we try to do 
a holistic view to make sure the hearing record picks up the 
diversity of the challenge in prevention and treatment and 
trade, so that we do not have the hearing record just look like 
our only focus is on law enforcement, which is a critical 
component and is a direct oversight responsibility of this 
committee.
    So Mr. Cook, you are first up.

 STATEMENTS OF BOB COOK, PRESIDENT, GREATER EL PASO CHAMBER OF 
 COMMERCE; RUBEN GARCIA, TRUANCY PREVENTION SPECIALIST, YSLETA 
  INDEPENDENT SCHOOL DISTRICT; AND JOSE LUIS SORIA, CLINICAL 
        DEPUTY DIRECTOR, ALIVIANE DRUG TREATMENT CENTER

    Mr. Cook. Chairman Souder, Vice Chairman Deal, Congressman 
Reyes, thank you for this opportunity. We appreciate that you 
are taking into consideration the concerns of business and 
commerce as we deal with these issues.
    My name is Bob Cook, I am the president and CEO of the 
Chamber and our Chamber represents over 1,100 businesses in the 
El Paso region. Our primary function is to develop a regional 
economy that creates jobs, that expands the tax base and 
improves the quality of life for all the citizenry in this 
region. And on behalf of the Greater El Paso Chamber of 
Commerce, I would like to welcome you to our community.
    Until I realized I was taking the oath, I was prepared to 
tell you we are the largest international border community 
anywhere in the world, but I guess I must change that to we 
believe we are the largest international border community 
anywhere in the world. Our borderplex here consists of over 2 
million population and, as Congressman Reyes suggested earlier, 
the real number is probably somewhere between 2\1/2\ and 3 
million people. We are home to approximately 1,000 
manufacturing operations on both sides of the border. Many of 
these manufacturing operations relate to one another. A plant 
in El Paso will sometimes supply multiple plants with certain 
component parts in the city of Juarez. Over the centuries, El 
Paso has been a trade route linking the north to the south, 
east to the west for native tribes, Spanish explorers, western 
settlers and today's global commerce.
    I am not going to go into all of my written testimony but I 
do want to hit some highlights and try to paint a picture for 
you with the map that I have provided you with there, and you 
might want to take out your map and I will talk about some 
things on there in just a few moments.
    Our community has capitalized on the opportunity to grow a 
manufacturing and trade-related economy based on geographic 
strength. In 2001, more than 668,000 commercial vehicles 
crossed our bridges. About 20 percent of all NAFTA trade 
crossed into the United States through one of our ports of 
entry here in El Paso. In that year, the goods imported through 
El Paso valued approximately $22.7 billion while exports 
through El Paso going southbound were valued at approximately 
$16 billion.
    Now look at the map. I want to try to paint a picture for 
you here and I hope this is not too elementary, I certainly do 
not want to be. But I think it is important to understand the 
vital relationship between El Paso and Juarez.
    As you look at this particular map, it is very difficult 
when you first look at it, to see where one city stops and the 
next one begins. But in this particular map--and you may need 
to help me with the colors here because I am color blind--the 
upper portion of the map, the light blue areas, I believe that 
is light blue, is El Paso. And then the beige colored area to 
the south is our sister city of Juarez, Mexico. You can see the 
extensive transportation linkages that exist throughout this 
region, how they interconnect with one another and I want you 
to see that the relationship between our two cities is just as 
vital as the relationships that exist between Minneapolis and 
St. Paul, between Dallas and Fort Worth, between Chattanooga 
and those northern communities of Georgia, there along the 
State line, and Washington, DC, and Arlington, VA.
    And imagine, if you will, as you think about those 
communities and you think about how our communities are inter-
related, there are literally four bridges that connect our two 
communities, and at some point as travelers go across those 
bridges, they are going to be stopped by a Federal agent and 
those Federal agents are asking questions and their vehicles 
are being subjected to inspection. And by the way, we believe 
that those inspectors are legitimate and necessary, so this is 
not an argument against what is going on. They are legitimate 
and necessary inspection and interdiction efforts that are 
occurring on those bridges. And we understand that national 
security and the health of our Nation is at risk.
    But they have a tremendous impact on us, nonetheless. And 
that impact is measured often in lost time and productivity, 
because there are business relationships and business 
transactions, legitimate business transactions that are 
occurring back and forth across those bridges on a daily basis. 
There are family and friendship relationships that are trying 
to occur back and forth across those bridges. There are 
children trying to attend school back and forth across those 
international bridges. And vehicles spend sometimes hours at a 
time idling on those bridges. And again, the impact is measured 
in lost time and productivity.
    There are environmental issues due to vehicular emissions 
there, and frankly, there is just a great disincentive for 
legitimate commerce and passage to take place.
    What I will say is I have a lot of things in my written 
testimony. We see the answer is not in stopping these 
inspections or these interdictions but making them better 
through technology, and we talk a lot about technology that we 
are piloting here on this part of the border and the need for 
increased staffing at these ports of entry.
    We are proud of the relationship by and large that we have 
had with the Federal agencies here on this part of the border 
to help expedite the movement of legitimate people and 
legitimate commerce back and forth.
    If I could make just one other statement. One of the 
technologies that we have implemented here is called a 
dedicated commuter lane where individuals are going through 
criminal background checks and other types of rigorous 
inspection to determine that they are low risk for traveling 
through a special dedicated lane between the cities of El Paso 
and Juarez. As of right now, we have over 15,000 users 
registered and approximately 10,000 vehicles. And it is 
interesting to note that by using this technology during peak 
hours, we are able to clear more traffic through that one lane 
that exists on one international bridge than in El Paso's 
largest international bridge with all 10 lanes open. So it is a 
great testimony to the success of pre-clearance technologies. 
We are advocating for the same kinds of things for cargo and 
even looking at it for mass transit on our international 
bridges.
    And by the way, the dedicated commuter lane that does exist 
on our downtown bridge, our Chamber of Commerce owns it. We saw 
this as a huge need to help expedite the movement of people 
back and forth across our border and we invested more than $2.2 
million to build that lane and its facilities and we lease it 
back to the Federal Government.
    Thank you.
    Mr. Souder. Thank you. It was a little bit unfortunate 
example to pick, Chattanooga in Nathan's district in the north 
part of Georgia, because every time I try to drive from Indiana 
to Florida I go through and the first thing when you come into 
his district you see this monument, the sign, for the 
Chickamauga Battlefield where they tried to kill the last time 
the Yankees tried to go down through his district coming from 
Chattanooga. [Laughter.]
    Mr. Garcia.
    [The prepared statement of Mr. Cook follows:]

    [GRAPHIC] [TIFF OMITTED] T0205.037
    
    [GRAPHIC] [TIFF OMITTED] T0205.038
    
    [GRAPHIC] [TIFF OMITTED] T0205.039
    
    [GRAPHIC] [TIFF OMITTED] T0205.040
    
    Mr. Garcia. Thank you very much. My name is Ruben Garcia 
from Ysleta Independent School District and El Paso Independent 
School District. It is certainly an honor and a privilege to be 
here before you.
    Congressman, I would like to thank your staff, because I 
was one of those late-comers that you were gracious in giving 
me 24 hours to put something together.
    I am giving a different skew here. The impact of drug trade 
on the population of the city, which is the 21st largest in the 
United States and the fourth largest city in Texas, and what I 
tried to do is--I have been working in this area for around 30 
years--categorize into four basic areas which constitute 
education, income, health and quality of life. I think you did 
a pretty good job, Congressman, of giving a synopsis of the 
impact it has once--although we are not with law enforcement, I 
think they have done a great job, but the fact of the matter is 
they do get across and it is having a very negative impact in 
our communities.
    I am not going to go over my testimony, which is there. 
What I did do last night is I did some additional points of 
interest that I would like to share.
    Traffickers are using minors to carry drugs across the 
border, known as mules, and because the penalty to minors is 
small, they are usually released back into Mexico the next day. 
Also, heroin is inexpensive right now. We are experiencing many 
new heroin addictions on both sides of the border, Juarez, 
Mexico and El Paso. One quarter of a gram of heroin dose used 
to be $25. Now you can get it on the streets anywhere in Juarez 
for about $5.
    Many drive-bys committed by American youth along the border 
are committed while high on glue or other inhalants, a cheap 
high. Every Friday and Saturday, you see thousands of American 
youth cross into Mexico to dance, drink and get drugged, known 
as the three Ds.
    Along the border, we have youth that belong to tagging 
crews, the party crews, drugs are very much part of this 
phenomenon through parties called raves.
    Drug pushing along the border is a must if youth go into 
gangland of importance, so the more they get into, jump-ins, 
drugs and criminal activity is a big factor. In border cities 
such as ours, youth take pride in drug accessibility. They 
proudly wear this by brandishing a three dot tattoo on their 
bodies, which means my life on drugs.
    By the way, Ricky Martin used in his movie and song, which 
they glamorize. It is really sad. Many youth gang jump-ins are 
done while girls and boys are under the influence of Rophypnol 
or downers. Many times the girls are gang raped as part of a 
ritual and many times without their consent.
    It is well known that drug trafficking along the border 
brings into play many unique and tough situations for our 
youth.
    In conclusion, I would just like to say that unfulfilled 
needs and expectations have an effect not only on the youth, 
but also on society which has lost the talent and contributions 
of a substantial portion of our generation. Society pays in 
economic terms as these youth are treated for substance abuse, 
incarcerated for criminal activity and enter the welfare 
system. Society pays in the sociological and emotional terms 
when it produces fewer stable marriages, fewer productive 
workers and few law-abiding citizens.
    To stop the cycle of poverty, poor health and illiteracy, 
society must address the impact of the border substance abuse 
and drug dealing with El Paso youth. The cost is immeasurably 
unacceptable.
    Thank you for letting me make these comments.
    [The prepared statement of Mr. Garcia follows:]

    [GRAPHIC] [TIFF OMITTED] T0205.041
    
    [GRAPHIC] [TIFF OMITTED] T0205.042
    
    [GRAPHIC] [TIFF OMITTED] T0205.043
    
    Mr. Souder. Could you just, for the record at this point, 
this really is not a question, but you focused on a number of 
very specific as well as a few general points. Could you tell 
us a little bit of what you do with the school system?
    Mr. Garcia. Absolutely. I run a truancy and dropout 
program, sir. And basically we work with the courts and I will 
tell you that a lot of kids--I have never seen a gang member 
that did not start as a truant and I can tell you that we have 
dealt with thousands over the last 3 or 4 years and I would say 
probably 70 percent of them have a substance abuse problem. I 
would say that of the gangs that are involved, the majority are 
involved in some kind of criminal activity.
    Mr. Souder. And when you say you work with the school 
district at this point, are you a consultant to them or----
    Mr. Garcia. Yes, sir, we have contracts to work with them.
    Mr. Souder. And have you done this for a long period or did 
you do something before that in this area too?
    Mr. Garcia. I have worked for about 30 years in this area, 
sir.
    Mr. Souder. With juveniles and truancy.
    Mr. Garcia. Yes, sir.
    Mr. Souder. Thank you. Mr. Soria.
    Mr. Soria. Good afternoon, Mr. Chairman, subcommittee 
members. I would like to make a change to my initial 
presentation. I welcome you to our Sun City. I think Mother 
Nature has played a trick on me and maybe I should say the dust 
bowl.
    But anyway, I also want to express my sincere thanks at 
being provided the opportunity to present before you today. My 
name is Jose Luis Soria. I am employed by Aliviane NO-AD, Inc., 
a community-based chemical dependency prevention, intervention 
and treatment organization. I am the clinical deputy director 
for this organization. My testimony to you today will focus on 
the humanistic aspect, but it will also take into account a 
holistic approach to the drug trade and the disruption of 
social and human institutions that this activity has on our 
community and, in general, to the State of Texas.
    The drug trade has created a catastrophic dilemma in the 
southwest and especially in and around the El Paso area, 
inclusive of the outlying rural communities. I will not 
elaborate regarding the west Texas rural counties--Hudspeth, 
Presidio, Culberson and Jeff Davis--or as better known and 
referred to as frontier west Texas. I think that the speakers 
before us have presented enough information regarding those 
areas.
    This is not to say that other areas of our Nation have not 
felt the scourge of this practice on our citizens, but as we 
all know, the El Paso area, due to its geographic and 
topographic uniqueness, has proven to be a preferred area for 
its illegal trade. We must also take into consideration the 
economic dependence that has metamorphosized between our city 
and our sister city of Ciudad Juarez, Mexico and other border 
cities that create a close economic or social tie to the north 
side of the border. This I believe is very important, the 
closeness relates to our cultural ties, the heritage and the 
lack of a sustainable economic resource on both sides of the 
border has played an integral part in nurturing and 
facilitating this lucrative, yet most detrimental activity. 
This multi-million dollar ``business'' has affected our youth, 
our criminal justice system, our economy, our healthcare system 
and most importantly, our quality of life.
    As I stated previously, I will not be redundant and 
describe the areas of west Texas or southern New Mexico, but I 
do want to point out a couple of special areas that I think are 
very important. Our regional economic plight is a major 
contributing factor that has helped expand the involvement of 
many of our citizens, especially our youth, in this unsavory, 
illegal, yet lucrative act. I believe Mr. Garcia alluded to 
that point. Even though many of our citizens initiate their 
involvement on the business end--the means of making money, 
most often, they find themselves becoming victims of ``the 
trade.'' Once this occurs, of course, their psychological, 
physical and social functioning erodes very quickly. They soon 
become a statistic that is associated with the criminal justice 
system, our social welfare system, and of course our healthcare 
system. I believe Sheriff Samaniego and Chief Leon alluded to 
those two major points of interest. Since involvement is not 
based on an isolationist basis and the substance abuse is 
inclusionary of the family, we now have a grimmer picture. 
Everyone in the household becomes a victim. Thus, that has an 
additional effect on the economic resources of the city of El 
Paso.
    I will not preach to the choir, as the saying goes, since 
this distinguished panel is comprised of many talented and 
knowledgeable individuals. I will expound the need to establish 
and continue efforts that provide for various elements in the 
war against drugs. First, interdiction is necessary in order to 
curtail the importation of harmful substances into the State. 
The proposition here is of course that less drugs that come 
into the country, the less victims we shall have. We must 
maintain a vigilant effort in this area, combined with 
collaborative and coordinated aspect with our neighbor to the 
south, since it will take a concerted effort to reduce the 
trade.
    Second, we must ensure that resources include the 
availability of programming at all levels to avail those 
prevention, intervention and treatment services needed by the 
citizens being confronted with substance abuse related 
problems. The Center for Substance Abuse Prevention [CSAP] and 
the Center for Substance Abuse Treatment [CSAT] have proven 
that the application of the appropriate services when needed by 
the individual can have significant impact on the reduction and 
complete stoppage of substance abusing behaviors. In essence, I 
am requesting that we utilize CSAT's premise: Treatment Does 
Work, and that we must maintain the availability of service at 
a high level of conscientiousness as we carry out efforts 
through the different levels of the drug trade.
    In closing, I would like to reiterate that the drug trade 
within the El Paso area and southern New Mexico has a very 
detrimental impact on the citizens of El Paso. As stated 
previously, I presented to you based on a humanistic aspect--
not on an economic aspect, not on a law enforcement 
interdiction aspect, but tried to emphasize the human side of 
it.
    In closing, I want to thank you once again for this 
opportunity and hope that you consider all presentations made 
here today to develop the most appropriate policies for this 
social problem. Thank you very much.
    [The prepared statement of Mr. Soria follows:]

    [GRAPHIC] [TIFF OMITTED] T0205.044
    
    [GRAPHIC] [TIFF OMITTED] T0205.045
    
    [GRAPHIC] [TIFF OMITTED] T0205.046
    
    Mr. Souder. Could you explain a little bit what your drug 
treatment center is, is it a long-term, outpatient, 
combination, mostly juvenile, seniors, alcohol, cocaine, 
heroin--just some of the types.
    Mr. Soria. It is a very comprehensive--in fact, it is 
Texas' second most comprehensive treatment program. It is a 
program that provides intensive residential services for the 
general population, women and children's programming. It has 
intensive and supportive outpatient services for adults. It has 
an intensive and supportive outpatient youth treatment 
services. It provides prevention, intervention and family 
services programming. We have offices in the El Paso area, in 
Alpine, TX and one in Van Horn, TX. We also have our infectious 
diseases unit, prevention unit, which comprises programming for 
HIV risk reduction testing, counseling, tuberculosis and Hep-C 
services, sir.
    We work within the schools, we work within the judicial 
entities, we work with the juvenile judges. We work with the 
adult probation office and the State parole office.
    Mr. Souder. Thank you. We'll go to a round of questioning 
here.
    Mr. Cook, clearly one of the things everybody agrees on 
that we are trying to figure out how to do on a national basis 
are these fast type lanes and I commend the Chamber for having 
taken a direct initiative while we are trying to figure out how 
to do it in a lot of places. In Detroit-Windsor, that has been 
a big help. Would you be receptive and do you believe the 
business community would be receptive in this area to, if 
somebody abuses that extra privilege of a fast lane, whether it 
be a truck clearance, auto or other, that the penalties for 
violations should be double or triple? In other words, we are 
only going to spot check, but we do not want--the question is 
how can, if you get a special privilege, we have some kind of--
--
    Mr. Cook. I think there is no question, we would be 
supportive of that. We have seen these kinds of things as 
extremely beneficial to the local economy and to our businesses 
individually here, and we would not want to see any activity 
continue that would put that at risk. So we would be very 
supportive.
    Mr. Souder. We met on the north border hearing and a number 
of Canadian trucking companies said that they would go along 
with that. One of the big problems--and if you have any 
thoughts that you would like to add to this--is who would get 
the penalty and how we could be just in figuring that out. That 
is also a standard problem we have--is it the shipper, is it 
the trucking company, is it the driver. What if the cab is 
different than the load he is hauling, and we need a good clear 
way to establish that because it becomes pass the buck when we 
actually catch somebody.
    Mr. Cook. What I would like to do, Mr. Chairman, is just 
consult our foreign trade community here over the next few days 
and then we will submit that to you in writing, if that is OK.
    Mr. Souder. Thank you.
    Mr. Garcia, in your opinion, one of our most difficult--let 
me give a couple of things and you can give a little bit of an 
answer today and if you want you can add more in depth--
prevention is--we say our programs in Colombia are only working 
medium well, we are having troubles on the border. I have met 
hundreds of drug addicts who have gone through six or seven 
treatment programs. It is very hard, it recurs, sometimes it is 
more of an insurance thing--it is complicated treatment. 
Similar on prevention. In other words, in looking at how do we 
make our prevention programs more effective. We are doing 
reauthorization of the drug czar's program. One of that is our 
national media campaign. We would appreciate any thoughts you 
have on that, particularly how it is--what we could do to 
better target and influence at risk youth as opposed to those 
who are already persuaded that drugs are bad.
    A second thing is the largest single dollar amount is the 
prevention programs in the schools, Safe and Drug-Free Schools, 
which are basically so watered down around the country, it is 
very difficult to figure out--I was very active in the 
reauthorization of that and it was very frustrating. We have 
like 27 uses that people can use for the money in any given 
school. I finally got a little clause in that says they have to 
at least mention at the tail end drugs are bad. But at one 
point, I got so frustrated, I offered an amendment that the 
funds could be used to improve educational skills, because 
obviously if you can read and write and get better education 
skills, you are less likely to get on drugs too. The point, 
however, of that program was supposed to be a direct program on 
anti-narcotics. And any thoughts you have that we might look at 
in school-based prevention programs that would be more 
effective, particularly in reaching at-risk kids, particularly 
junior high, particularly males and often we have a separate 
problem with suburban rich kids than we do--which by broad 
definition my kids would fall into--than we do in Hispanic and 
African-American kids. And I am not sure we pick up those 
nuances.
    Any thoughts you have on a national ad campaign, prevention 
programs in the schools or other targeted things we could do, 
particularly as we look at kids who are already caught up in 
the probation system and are now coming back out into the 
community, either while they are in the prison system and in 
the probation system and before they are coming out.
    You can take a brief stab at that here, but I would welcome 
any specific suggestions you have in that area.
    Mr. Garcia. I would like to, first of all, say that I will 
think about those and do the best I can here, but I will 
certainly submit something in writing along those lines.
    I belong to the Dropout Task Force with the Texas Education 
Commission and we have representatives from all over the State, 
superintendents, what-have-you. This is exactly what we are 
looking at. We all know that Just Say No never worked--not in 
this part of the country. I think prevention efforts are 
important. You know, if you look at my testimony, here in El 
Paso, a large portion are single parents, they are just making 
ends meet with two jobs, and there is a lot that can be done at 
the schools working with at-risk, working with these kids, 
doing--getting the community involved. There is not enough 
resources and never will be, but I think it is important to get 
the criminal justice, the educational entities, community 
services such as Aliviane provides. That is what we are doing 
here, trying to approach it from a holistic standpoint, because 
it is very difficult.
    And so that is what we are focusing on right now in the 
State of Texas with this task force, is to provide prevention, 
intervention services, get them at the front end before they 
wind up, you know, in the criminal justice system and prisons 
and, you know, where it affects our tax base, our welfare 
system and so forth.
    Mr. Souder. Thank you. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    My first question is for Mr. Cook. As you know, we have had 
kind of a departure control system, that means that people 
would get checked coming into the country and would be checked 
leaving the country. Can you share with us an opinion of how 
that would impact our area here, if at all?
    Mr. Cook. OK. That is something that we spent a lot of time 
talking about within the commercial and industrial community 
here in recent months. We are very concerned about the impacts 
of an exit control system, particularly if we try to implement 
it before the proper technology is in place, and particularly 
if we do not see a dramatic increase in the amount of 
resources, particularly human resources, staffing, at those 
international ports of entry, than what we currently see right 
now.
    As I alluded to earlier, we are seeing trucks and vehicles 
in line on our international bridges sometimes as long as 1, 2 
and 3 hours. Part of the problem is because we do not have 
enough staff to man all northbound lanes on those ports of 
entry at all times. And if we are going to do something that is 
just merely going to take resources away from that effort to 
now check southbound, then we see a much larger negative 
economic impact on this economy than what we have seen 
historically.
    And let me tell you how that translates. With China really 
emerging onto the scene in the last couple of years as a 
manufacturing force, just in the last 18 months, we have lost 
more than 90,000 jobs in the city of Juarez alone in production 
and manufacturing, manufacturing-related jobs. We feel like if 
we are going to do something to try and turn that trend around, 
we will not be able to compete on labor costs against China--
Mexico cannot compete on labor costs with China--but where we 
can compete is because of our geographic proximity between our 
two countries and enterprise in those two countries, if we can 
expedite trade north and southbound through those ports of 
entry, if we can somehow through the utilization of technology 
and increased staffing make those products and services flow 
more efficiently, then we can somehow counteract the negative 
impact that we are seeing, that is coming against this area 
from China right now.
    So Congressman, we are very concerned about the 
implementation of those exit control programs.
    Mr. Reyes. Thank you.
    My next question is for Mr. Garcia and Mr. Soria. I would 
like to know what is the average age of your clients, in 
particular focusing on school age, and then has the pattern 
changed in the last 3 to 5 years and if so, is there a 
difference between urban and rural in terms of the clientele, 
the services and the impact in that 3 to 5 year period?
    Mr. Garcia. Congressman Reyes, let me respond that we have 
seen approximately 6,000 families and students in the last 3 
years and we get them from age 7 to 18. Insofar as--you know, 
most of the districts we work with are urban. I think Mr. Soria 
could speak more to the rural, what kind of trends they are 
seeing there.
    Mr. Soria. Adding to Mr. Garcia's comments, I think there 
is a distinctive difference between urban and rural, even the 
ages and there are certainly some drug patterns involved that 
the communities do have.
    For example, in the rural areas, you see a high incidence 
of alcohol abuse among young--and I mean young, 9 to 11 year 
old--males, which we attributed to being part of the cultural 
processing; you know, the rite of passage kind of thing.
    In the El Paso area, we see a higher incidence of inhalant 
abuse, amphetamines and barbiturates coming across the river, 
and the age average there is between 10 and 11. Lately, we have 
seen an increase on the cases that we see here in the El Paso 
area where the females are taking on a greater number 
dysfunctionality than the males. Traditionally, it has been 
males, we have seen this trend I guess in the last 6 months.
    Mr. Garcia. Absolutely. Also, in addition, we have seen 
more females getting involved in gang-related activities. So 
those are the differences.
    Mr. Souder. Mr. Deal.
    Mr. Deal. Thank you, Mr. Chairman.
    Mr. Cook, one of the things that I think all of us would 
like to see is to allow commerce to move without undue 
impediments. That is why one of my real concerns and I suppose 
one of my pet peeves is the fact that one of the ways that we 
could do that would be for Mexico to be more cooperative on 
dealing with the two issues that are our major problem; that 
is, the flow of drugs into our country from their country and 
the flow of illegal immigrants from their country into our 
country.
    If those would cooperatively attempt to address those 
issues more aggressively on their side of the border, then we 
would be able to reciprocate without having these undue 
impediments as they cross the border. Would you agree with 
that?
    Mr. Cook. I do not know that I am fully capable or expert 
enough to answer fully there, but that may very well be the 
case, sir.
    Mr. Deal. Well, I think, you know, we have had a better 
working situation, although it is now somewhat in question, 
with Canada. And part of that freer flowage has been that there 
has been mutual cooperation on both sides of the border with 
mutual goals in mind and I think that is one of the messages 
that we all need to send to our counterparts across the border 
here.
    Mr. Cook. And let me say, in our Chamber in the last year, 
we have been undertaking a more proactive effort to work with 
business groups on the other side of the border to jointly 
lobby issues, both in Washington and Mexico City, that impact 
trade. And I think this is a message that we could help deliver 
from you and other Members of Congress through our business 
community contacts in Mexico back to Mexico City.
    Mr. Deal. Well, I think we all need to work in that 
direction on that.
    Mr. Garcia, as a former juvenile court judge, I deeply 
appreciate your comments and the magnitude of the problem and 
it is a huge problem. And it is certainly one that we all 
share.
    I have a concern, because I see in my area that gang 
activity has a direct linkage with, in our case, the 
distribution of drugs within the community. Is there a 
connection here on the border between the gangs and the drug 
activity, either in bringing it across the border or in some 
distribution chain once it crosses?
    Mr. Garcia. In my opinion, I think so, most of them are 
involved in some kind of either distribution or, you know, 
selling it. We see a lot of those coming into our playgrounds, 
unfortunately, and recruiting younger ones to get involved. 
There are certain gangs here that are pretty much involved in 
that kind of activity; yes, sir.
    Mr. Deal. Have your schools adopted any policies with 
regard to dress codes or anything else that would prevent the 
display of gang colors, paraphernalia, etc?
    Mr. Garcia. We have identified, particularly in the lower 
valley, some campuses that had some gang-related activities and 
they have what is called site-based management and some 
campuses have done that, come out with school codes; you know, 
the dresses that they wear, blacks and silvers and bandannas 
and--you know. So some have and some have not.
    Mr. Deal. I think we all of course are searching for what 
to do with those who are addicted and into the system. Have the 
programs that--Mr. Garcia, I would simply ask maybe Mr. Soria 
if you would maybe comment briefly and then perhaps followup 
along with Mr. Garcia on the two programs that the chairman 
alluded to, the media program and the safe schools program, as 
to their effectiveness. Have you had working relationships with 
those activities?
    Mr. Soria. Yes, sir, primarily the--Aliviane NO-AD has been 
in the El Paso area for the last 32 years. Throughout its 
history, it has formed a network and collaborative effort that 
has worked with the various entities throughout El Paso City 
and the county. I think that, as I alluded to in my 
presentation, maybe in the written documentation, not in the 
verbal one, the problem is a community-wide, state-wide, 
nation-wide problem and it will take collaborative efforts from 
every one of those entities involved in order to provide the 
most appropriate direct services at that appropriate time of 
the child's development, or in the parental engagement.
    We work very closely with the school programs and the drug 
free school programs sponsored by the Federal Government and by 
the State of Texas. We also work very closely with programs 
within the school system to engage and have a transitional 
process the follows the child from the school campus into the 
home environment. In other words, it has to be a complete 
transitional process so everybody involved can get into the 
picture.
    Mr. Deal. Just one real quick final question. There has 
been an ongoing debate in drug policy in this country as to 
whether or not the availability of drugs has any direct 
relationship to the usage. Some would argue that it does, some 
would argue that it doesn't. Obviously you are here very close 
to a huge source of available drugs. Is there any statistical 
information that would indicate whether or not that proximity 
to a large amount of illegal drugs translates into a larger 
percentage of the population using those drugs? Do you know?
    Mr. Soria. I think several studies have been made. The most 
current one will be the tobacco use surveys that the Federal 
Government has done. Since the usage of any type of substance, 
whether legal or illegal, is a result of a combination of 
factors, I do not think that any study can preclude and say 
that any one single factor is the causal reason for a person 
doing drugs. I think it is a combination of physical, 
psychological, social, environmental, familial and other types 
of elements that do affect that individual.
    To give you an example, the suicide rate among teenagers is 
the highest of all ages in the United States. There has been no 
specific reason identified for that phenomenon, but yet it 
still exists. So I am saying that it would be very hard to say 
and just get one specific reason why. But we must take into 
consideration that it has to be a conglomeration of elements, 
that is why it has to be holistic in its approach.
    Mr. Deal. Thank you, Mr. Chairman.
    Mr. Souder. Mr. Soria, do you do drug testing and followup 
or is it self-reported?
    Mr. Soria. No, sir, we utilize the urine toxicology 
screening in two ways. One, of course as a deterrent. It is a 
mind game really, if the person does not know when they are 
going to get tested, that often helps deter the individual from 
usage. We also use it as a means of checking for true 
estimates.
    Mr. Souder. Do you keep followup records for like 6 months, 
2 years, 5 years?
    Mr. Soria. Yes, sir, according to Federal law and State 
law, we are supposed to keep records for 3 years under the 
Federal requirements, State law says 5. Our CEO wants to keep 
the records forever. We have records dating back to 1970.
    Mr. Souder. So you can--when you keep those records, do you 
have records as to whether those individuals have entered into 
other treatment programs post taking yours?
    Mr. Soria. Yes, sir. We are--under the State of Texas, we 
fall under the Texas Commission of Alcohol and Drug Abuse and 
basically it has a client identification processing where 
initially it kind of follows up the individual receiving 
treatment services. Now through higher tech innovations, the 
Commission is moving toward a high tech client identification 
computerized system; yes, sir.
    Mr. Souder. Thank you. And I know we have had a long day 
here, I wanted to just make a brief comment on the backhaul. 
There is a huge problem when we are not getting the money going 
back. There is just no question. I mean we can holler all we 
want at the Mexicans where the narcotics are coming in, but the 
turnaround is yeah, the money is coming in the United States 
and your people are still working and moving the money. This 
has to be addressed. And the proof of the pudding is that if we 
do back checks and find stuff, we are going to do back checks. 
The Canadians are complaining on the north border, they 
actually have cooperative teams pretty good about trying to 
catch it, but in the two experiments in Montana and Niagara, we 
are finding guns and money going the other direction, or we are 
finding B.C. Bud coming in and we are shipping cocaine and 
heroin. We actually have as many drugs going into Canada as 
they have coming in to us almost at some borders.
    Now what we need to do is figure out how to do this same 
fast pass system. Then the next challenge for you as a business 
exec is now to not drive small business guys out because they 
cannot do the large system that the large guys do. And I think 
your point is well taken, that we have to simultaneously be 
getting our technology up at the same time we are doing it, but 
I see this as a coming thing, because when we deal with other 
countries, part of their reaction is you are quick to try to 
watch coming in, but you are shipping it to us. And they, quite 
frankly, in Mexico, are not going to have the resources with 
which the deal with it, even if there were questions of 
complete integrity here.
    Mr. Cook. Mr. Chairman, I want to make sure I was clear on 
my comments to you. We are not opposed to the exit control 
system, we are concerned about the implementation of it.
    Mr. Souder. Because you are getting it in both directions 
then.
    Mr. Cook. Precisely.
    Mr. Souder. At the GM plant in Fort Wayne and meeting with 
one of the Canadian Parliamentarians who was a GM plant manager 
there who was going to be the Fort Wayne manager--I have the 
largest pickup plant in the world--that there are 100 border 
crossings between Canada and the United States and I am 140 
miles from the border in the making of each pickup. So you take 
that from 5 minutes to 20 minutes to an hour, you have 
dramatically increased the cost of pickups.
    Mr. Cook. That is right.
    Mr. Souder. And so I understand the dilemma but this is not 
going to be easily solved, particularly in the homeland 
security where, fortunately since September 11, we have been 
able to intercept everybody. But what I have been warning 
everybody along the borders and the stake that the border has 
is the first time the FBI was a new Director, we were 
reorganizing, it was a relatively new administration. The 
second time we have a terrorist attack in the United States, if 
that comes, for example, parts through a truck, if Atta crosses 
a border, the American people will not be as tolerant to back 
off the intensity that we had on September 12, which was kind 
of the disaster day for business and commerce, the rest of 
September 11 and September 12, you could not function in the 
United States with that kind of discipline. So we have to be 
thinking in those terms, because we know the terrorist risk is 
not going to go down, the narcotics, as we work to get 
legitimate, kind of semi, quasi-legitimate things where things 
shut down. We have met with the Swiss banks and put tremendous 
pressure for tracking the money, they are going to go to 
illegal money, illegal means smuggling immigrants, smuggling 
diamonds, smuggling mostly narcotics, to fund terrorist 
efforts. So combined with the traditional pressures you have, 
hits on homeland security are going to make your job, 
particularly at these border crossings, huge in trying to work 
with the Federal Government in trying to figure out creative 
ways like you did on the leasing of those lanes, talking to 
other Chamber groups around the country, some of the inland 
places need to be invested in the border point too.
    Mr. Cook. Yes.
    Mr. Souder. And understand that having--trying to work out 
these differences on bill of lading and how specific they need 
to be can speed the VACIS machines. Yes, nobody likes to say 
what is going to be on that truck until 1 hour before it has to 
go to the border, but the more specifics we have, the easier it 
is at the border crossing, not to slow them down. And this is a 
huge economic dilemma, as you have said.
    Mr. Cook. Yes. And let me say too, we are currently working 
with Sandia Labs in this community too on the types of 
technology that can be developed that will help these very 
issues that we are discussing, and we are very hopeful that 
sometime in the near future, we are going to even be able to 
leverage additional investment by Sandia to come down here to 
the border and have people on the ground directly studying 
these issues and doing original research on these issues.
    Mr. Souder. Any other comments or questions?
    Mr. Reyes. Just a comment. In fact, we are going to be a 
test bed for a new system of technology called pulse fast 
neutron analysis that, if it works, if it is field tested the 
way it has worked in the laboratories, it is not inconceivable 
that we will have, for the first time, a technology that we can 
build nothing but commercial bridges or ports of entry, that 
will be able--you heard the testimony from the Customs Port 
Director that said on the average what they have now takes 
about 7 minutes to do the scan. This technology can do it in a 
matter of 2 minutes and it can simultaneously look for over 200 
things that you focus on it. It can be chain-linked so that 
instead of one truck or one container, it can do three 
simultaneously in a 2-minute period.
    So that is the kind of technology that I think is going to 
make a difference for us. And we are literally on the threshold 
of it. We are anticipating testing it here in Ysleta certainly 
by summer or fall of this year.
    And again, just thank you for doing this hearing. I know we 
threw a lot of information at you, but I intend to also, for 
the record, also give you some additional information.
    Mr. Souder. Thank you, and one of the tough questions that 
we are going to have is that machine is $12 million.
    Mr. Reyes. Well, actually that machine----
    Mr. Souder. That will go down as----
    Mr. Reyes. It will go down, it will go down to less than $3 
million.
    Mr. Souder. The bottom line is that it may be that business 
and industry is going to have some choices here to help share 
some of the cost of that, because time is more valuable than 
money, as long as it is a shared type of thing and does not get 
disproportionate just to the borders. But those are going to be 
difficult questions because that is the type of machinery we 
need to go toward.
    Mr. Deal.
    Mr. Deal. Well, Mr. Chairman, I just want to thank these 
witnesses and all the others and the people who have been here 
at the hearing today, and also to express my appreciation to 
our fellow Member of Congress and able representative of your 
area, Mr. Reyes. Thank you very much.
    Mr. Reyes. My pleasure.
    Mr. Souder. Thank you again for coming, for being patient, 
for being our cleanup hitters on today's hearing. And with 
that, the subcommittee stands adjourned.
    [Whereupon, at 1:20 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T0205.047

[GRAPHIC] [TIFF OMITTED] T0205.048

[GRAPHIC] [TIFF OMITTED] T0205.049

[GRAPHIC] [TIFF OMITTED] T0205.050

[GRAPHIC] [TIFF OMITTED] T0205.051


</pre></body></html>
